United States Department of Agriculture
Office of Inspector General




                          Office of Inspector General
                                          Semiannual
                                          Report to Congress
                                          FY 2008 - 1st Half
                                          No. 59 May 2008
KEY OIG ACCOMPLISHMENTS IN THIS REPORTING PERIOD
RESULTS IN KEY CATEGORIES

 SUMMARY OF AUDIT ACTIVITIES
 Reports Issued
    Number of Reports                                                                                              30
    Number of Recommendations                                                                                     180
 Management Decisions Made
    Number of Reports                                                                                              22
    Number of Recommendations                                                                                     180
 Total Dollar Impact (Millions)
                                                                                                              $363.8
 of Management-Decided Reports
    Questioned/Unsupported Costs                                                                                $30.6
    Funds To Be Put to Better Use                                                                             $333.2
 SUMMARY OF INVESTIGATIVE ACTIVITIES
 Reports Issued                                                                                                   146
 Impact of Investigations
    Indictments                                                                                                   125
    Convictions                                                                                                   374
    Arrests	                                                                                                      182
 Total Dollar Impact (Millions)                                                                                $34.7
 Administrative Sanctions                                                                                          54



OIG MAJOR USDA MANAGEMENT CHALLENGES
(August 2007)
1) Interagency Communications, Coordination, and Program Integration Need Improvement
Related material can be found on pages 3-4.
2) Implementation of Strong, Integrated Management Control (Internal Control) Systems Still Needed
Related material can be found on pages 5, 8-11, 14-15, 19, and 23.
3) Continuing Improvements Needed in Information Technology Security
Related material can be found on pages 17-18.
4) Implementation of Improper Payment Act Requirements Needs Improvement
Related material can be found on pages 17-19.
5) Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained
Related material can be found on pages 3-5 and 11.
6) Material Weaknesses Continue To Persist in Civil Rights Control Structure and Environment
No work was begun during this reporting period.
7) USDA Needs To Develop a Proactive, Integrated Strategy To Assist American Producers To Meet the Global Trade Challenge
No work was begun during this reporting period.
8) Better Forest Service Management and Community Action Needed To Improve the Health of the National Forests and Reduce
the Cost of Fighting Fires
Related material can be found on page 4.
9) Improved Controls Needed for Food Safety Inspection Systems
Related material can be found on pages 1-2.
Message From the Inspector General
I am pleased to provide the Semiannual Report to Congress for the Office of Inspector General (OIG), U.S. Department of Agriculture
(USDA), for the 6-month period that ended March 31, 2008. This report summarizes the most significant OIG activities during the
period, organized according to the program goals set forth in our current strategic plan, as shown below.

n	     afety, Security, and Public Health – Prompted by a Congressional request, OIG reviewed the Food Safety and Inspection Service
      S
      (FSIS) plan to implement a risk-based inspection system for processing facilities. OIG recommended that FSIS complete its plan for
      improving the use of food safety assessments, ensure its risk analyses are thoroughly documented, and implement oversight over critical
      information technology systems. We also responded to then Acting Secretary Conner’s request to review E. coli sampling and testing.
      Our investigative work resulted in sentencings in cases of dogfighting involving a professional athlete and the sale of adulterated
      foods.

n	    I ntegrity of Benefits – Our investigative cases involving food stamps, infant formula, tobacco marketing, and farm loans yielded
       significant prison sentences and court-ordered restitutions in the millions of dollars. Our audit work disclosed that, following the
       2005 hurricanes, producers could not always document Tree Indemnity Program payments and that the Farm Service Agency needs to
       improve controls over the approval and distribution of Aquaculture Grant Program funds. An inspection found that a large dairy firm
       misreported nonfat dry milk pricing data; the National Agricultural Statistics Service agreed to strengthen controls over future data
       reporting.
n	     anagement Improvement Initiatives – Our audits found that the Risk Management Agency needs to further strengthen financial
      M
      management controls over reinsurance companies and that the Food and Nutrition Service needs to improve information technology
      security in its Store Tracking and Redemption System II. The USDA FY 2007 Consolidated Financial Statements received a qualified
      audit opinion because of deficiencies we identified after Rural Development made significant revisions to certain of its credit reform
      processes. Our investigations yielded a number of sentencings for embezzlement, fraud, and possession of child pornography.

n	     tewardship Over Natural Resources – Our audit work after the 2005 hurricanes found that the Natural Resources Conservation
      S
      Service should evaluate funding decisions for multi-State disaster areas to ensure that available funding can be put to the highest
      priority or best use.

During this reporting period, we conducted successful investigations and audits that led to 182 arrests, 374 convictions, $34.7 million
in recoveries and restitutions, 143 program improvement recommendations, and $363.8 million in financial recommendations. In
response to some of our program improvement recommendations, the Forest Service agreed to develop an overall plan to complete
airworthiness assessments for its firefighting aircraft, and the Rural Utilities Service agreed to develop a formal strategy to maximize
the effectiveness of renewable energy projects.

These monetary results and program improvements would not have been possible without the continuing interest and support of
Secretary Schafer, Deputy Secretary Conner, and the Congress. Their strong commitment is vital to our mutual success in improving
USDA programs and operations.




Phyllis K. Fong
Inspector General
Contents
 Safety, Security, and Public Health. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

 Integrity of Benefits. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7

 Management Improvement Initiatives . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 14

 Stewardship of Natural Resources. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 23

 Gauging the Impact of OIG . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 25

 Abbreviations of Organizations. .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 39
                                                                    Goal 1




Safety, Security, and Public Health
OIG Strategic Goal 1:                                                        In the first half of fiscal year (FY) 2008, we devoted 20 percent
                                                                             of our total direct resources to Goal 1, with 98.8 percent of
Strengthen USDA’s ability to implement safety and                            these resources assigned to critical/high‑impact work. A total
security measures to protect the public health as                            of 59.5 percent of our audit or inspection recommendations
well as agricultural and Departmental resources.                             under Goal 1 resulted in management decision within 1 year,
                                                                             and 80 percent of our investigative cases had criminal, civil, or
To help USDA and the American people meet critical challenges                administrative action taken. OIG issued six audit reports under
in safety, security, and public health, OIG provides independent             Goal 1 during this reporting period. OIG’s investigations
and professional audits, inspections, and investigations in these            under Goal 1 yielded 22  indictments, 277 convictions, and
areas. Our work addresses such issues as the ongoing challenges              about $1.8 million in monetary results during this reporting
of agricultural inspection activities, safety of the food supply,            period.
and homeland security.



   Management Challenges Addressed Under Goal 1

   n	     Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goals 2, 3, and 4)

   n	     Continuing Improvements Needed in Information Technology (IT) Security (also under Goal 3)

   n	     Departmental Efforts and Initiatives in Homeland Security Need To Be Maintained

   n	     USDA Needs To Develop a Proactive, Integrated Strategy To Assist American
          Producers To Meet the Global Trade Challenge (also under Goal 3)

   n	     Better Forest Service Management and Community Action Needed To Improve the Health of
          the National Forests and Reduce the Cost of Fighting Fires (also under Goals 3 and 4)

   n	     Improved Controls Needed for Food Safety Inspection Systems




EXAMPLES OF AUDIT, INSPECTION, AND                                           the program and FSIS had resolved the issues identified. OIG
INVESTIGATIVE WORK FOR GOAL 1                                                consequently initiated an audit of the proposed RBI program
                                                                             and found weaknesses in (1) assessments of establishments’ food
Risk-Based Inspection (RBI) at Meat and Poultry                              safety systems, (2) security over IT resources and application
Processing Establishments                                                    controls, (3) data management infrastructure and analyses, and
                                                                             (4) management control structure.
In February 2007, the Food Safety and Inspection Service
(FSIS) announced its plan to implement a pilot RBI program                   FSIS had planned to begin implementation of RBI before
for meat and poultry processing establishments. Congress and                 determining the data needed for a comprehensive risk
other stakeholders became concerned that FSIS was beginning                  determination at processing establishments. FSIS planned
to implement RBI before it had addressed weaknesses reported                 to implement an initial phase of RBI using available data
in prior OIG audit reports on FSIS’ meat and inspection                      and to continue collecting and refining data and data needs
program and that issues regarding the agency’s methodology                   in subsequent phases. In addition, FSIS does not have
for determining risk had not been addressed. Congress directed               adequate management control processes or an integrated IT
FSIS to refrain from implementing RBI until OIG had studied                  system in place. OIG made 35 recommendations to improve




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half            1
                                                                       Goal 1




FSIS’ management controls, data collection and analyses                         President of Food Processing Company Sentenced
processes, and IT infrastructure. FSIS agreed with all of these                 for Sale of Adulterated Foods
recommendations and has already begun to take responsive
action. For example, FSIS is refining and expanding the data                    In November 2007, the president of a food processing
used in its RBI calculation. FSIS also accelerated improvements                 company was sentenced in the Southern District of Florida
to its E. coli sampling methodology, as well as its plans to review             to 15 months in prison and 36 months of supervised release,
the control of this pathogen by beef suppliers and processors.                  fined $5,000, and ordered to pay $200,000 in restitution to
In addition, FSIS awarded a contract to build its new Public                    the University of Florida to support its food safety programs.
Health Information System to better integrate and consolidate                   The company president had been charged with a scheme to
its numerous applications that collect information on activities                defraud through the sale of adulterated foods and a scheme
to ensure the safety of meat, poultry, and egg products. (Audit                 to introduce misbranded food into interstate commerce.
Report No. 24601-07-Hy, Issues Impacting the Development                        Poultry and seafood products contaminated with Listeria
of RBI at Meat and Poultry Processing Establishments)                           monocytogenes, a potentially fatal pathogenic bacterium that can
                                                                                be found in ready to-eat food products, were misbranded and
E. coli Sampling and Testing                                                    shipped to several locations throughout the United States and
                                                                                Canada. This case was worked jointly with the Food and Drug
After a large meat recall in the fall of 2007, the Deputy Secretary             Administration’s (FDA) Office of Criminal Investigation.
(then Acting Secretary) requested that OIG determine whether
improvements could be made to FSIS sampling and testing
                                                                                FSIS’ Evaluation of Carbon Monoxide (CO)-Based
procedures for E. coli, and identify any relative costs and benefits
associated with these improvements. Our memorandum to the
                                                                                Modified Atmospheric Packaging (MAP) Under the
Deputy Secretary provided our observations and suggestions
                                                                                Generally Recognized as Safe (GRAS) Regulatory
based on our interviews with representatives from other                         Process
agencies, academia, and the quick-service restaurant industry.                  Overall, our review found that the suitability determinations
We noted that, in the past, OIG has consistently reported                       made by FSIS regarding CO‑based MAP systems were
concerns with the adequacy of establishments’ Hazard Analysis                   consistent with the agency’s understanding of its memorandum
and Critical Control Point (HACCP) plans and commented                          of understanding (MOU) with FDA, the Federal Meat
that clearer criteria might be needed to adequately evaluate the                Inspection Act, and FSIS regulations. FDA evaluated the safety,
assumptions on which HACCP plans were based. Although the                       and FSIS the suitability, of CO-based MAP for use in meat in
meat industry now performs significant testing of its own and                   accordance with each agency’s respective authorities, under a
publishes best practices for members to follow, FSIS does not                   category of food ingredients known as GRAS.
have a formal campaign for educating the meat industry and
encouraging the implementation of best practices. In addition,                  However, the standard (called the “permanent change
FSIS could minimize the number of discarded samples and                         standard”) and some of the related terminology (including the
reduce the turnaround time for E. coli screening tests.                         terms “better or of greater value” and “processing aids”) used
                                                                                by FSIS in its oversight of these matters have not been formally
FSIS is completing questionnaires regarding the number of                       adopted in agency guidance or policy. We also found that some
establishments using specific types of validated interventions                  of the information FSIS uses is gathered by FDA under a 1997
(e.g., hot water and acid washes, steam vacuuming, steam                        proposed rule, rather than under a final rule, as required by
pasteurization) in use at each establishment. This should                       law. FSIS needs to consult with USDA’s Office of the General
provide FSIS with the data necessary to better target E.  coli                  Counsel (OGC) regarding potential issues for the agency
sampling and testing and to adjust programs or policies as                      when completing GRAS reviews conducted under processes
needed. (Audit Report No. 24601-04-KC, FSIS Sampling and                        established by a proposed rule that has not been finalized.
Testing for E. coli)
                                                                                FSIS agreed to issue written guidance on the definitions of the




2     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half
                                                                     Goal 1




terms “better or of greater value” and “processing aids” and                  The recommendations were intended to strengthen APHIS’
will consult with OGC. (Inspection Report No. 24901-01-IR,                    ability to respond to an avian influenza outbreak.
FSIS’ Evaluation of CO-Based MAP Under the GRAS
                                                                              APHIS agreed with our recommendations to establish a control
Regulatory Process)
                                                                              mechanism to accurately report information on assigned tasks,
                                                                              provide HSC with corrected information for the inaccurately
Joint Investigation of Dogfighting Activities Results                         reported tasks, monitor support tasks and coordinate with
in Professional Athlete Being Sentenced and                                   HSC, and develop plans for testing the success of tasks that
Ordered To Pay $928,073 in Restitution                                        have not been tested. (Audit Report No. 33701-01-Hy,
                                                                              USDA’s Implementation of the National Strategy for Pandemic
As reported last period, OIG conducted a joint investigation into
                                                                              Influenza)
dogfighting activities that has resulted in a professional athlete
being sentenced in Federal court in Virginia in December 2007
to 23 months of imprisonment and 36 months of supervised                      Import Controls Over Live Animals Need To Be
release and ordered to pay $928,073 in restitution to fund the                Strengthened
cost of caring for pit bulls seized by the U.S. Government.
From November 2007 through January 2008, four other                           Our audit concluded that APHIS’ import controls need to be
individuals were sentenced as co-conspirators, respectively, to               strengthened and automated to prevent, detect, and address
3 years of supervised probation and 2, 18, and 21 months in                   the entry of live animals that do not meet import requirements.
prison, as well as 36 months of supervised release for the three              The United States imported approximately 20 million animals,
sentenced to prison terms. The investigation disclosed that                   mostly from Canada and Mexico, during FY 2006. APHIS
the five were actively involved in dogfighting activities, and                establishes import policies and works in conjunction with
structures designed to breed, house, and fight dogs were found                the U.S. Department of Homeland Security’s (DHS) U.S.
on the professional athlete’s property. This investigation was                Customs and Border Protection (CBP) at the borders and FSIS
conducted jointly with the Virginia State Police and the Surry                officials at slaughter establishments.
County Sheriff’s Office.                                                      APHIS did not have adequate processes in place to follow up
                                                                              and determine whether individual problems detected represent
Continued Monitoring of Avian Influenza                                       a larger systemic noncompliance that needs to be addressed by
Preparations                                                                  agency inspection personnel or the country of origin. APHIS
                                                                              also does not have effective systems or controls for approving
Our audit found that USDA took action on each lead task we
                                                                              and/or tracking live animals in the United States. We found
reviewed that was assigned to it as part of the Implementation
                                                                              that APHIS officials were not aware that animal shipments
Plan of the National Strategy for Pandemic Influenza, released
                                                                              entered the country without inspection, and they could not
in May 2006. According to the President’s Homeland Security
                                                                              always demonstrate that all restricted animals were slaughtered.
Council (HSC), USDA met the measures of performance for
                                                                              In addition, we found that APHIS could not account for all
all the tasks completed through May 2007.
                                                                              official USDA seals used to secure the animal conveyance
However, we found that USDA did not test the newly                            after inspection at the port of entry. Because these issues
developed procedures, nor did it assess and evaluate the revised              represented potential homeland security weaknesses, we issued
procedures to ensure they worked as designed. USDA also                       a Management Alert in May 2007 and made recommendations
did not correctly report the status of two major Animal and                   for immediate corrective action.
Plant Health Inspection Service (APHIS) functions to HSC.
                                                                              APHIS generally agreed with our recommendations to enhance
In addition, APHIS did not fully implement two of the eight
                                                                              the controls over the importation of live animals and responded
recommendations from our prior report on the oversight of avian
                                                                              with plans or actions to strengthen or implement additional
influenza (Audit Report No. 33099-11-Hy, APHIS Oversight
                                                                              animal import controls. (Audit Report No. 50601-12-Ch,
of Avian Influenza, issued June 2006), as of September 2007.




                                                                          USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half           3
                                                                    Goal 1




USDA Controls Over the Importation and Movement of Live                      FS Needs Overall Plan To Ensure Airworthiness of Its
Animals)                                                                     Firefighting Aircraft
                                                                             We found that the Forest Service (FS) needs to develop and
APHIS Programs for Agricultural Import Permits                               implement a plan to ensure the airworthiness of its firefighting
                                                                             aircraft. FS uses aircraft for firefighting, which often stresses the
In a followup to our March 2003 audit, we found that
                                                                             aircraft well beyond the limits for which they were designed,
APHIS had made some improvements to the security of its
                                                                             so it is imperative to ensure that they can withstand the fire
processes for issuing import permits for agricultural products
                                                                             environment. The Federal Aviation Administration (FAA)
and in its procedures to screen packages entering the country
                                                                             does not do this because FS firefighting aircraft generally are
under these permits. Our earlier audit had identified several
                                                                             exempt from FAA requirements and oversight. FS has assumed
weaknesses that could allow unauthorized persons to gain
                                                                             this responsibility, but without the technical knowledge and
access to APHIS’ permit program and use it to bring prohibited
                                                                             financial backing to do so adequately.
materials into the country. In our current audit, we found that
APHIS’ new permit system (ePermits), which would provide                     FS does not ensure that qualified personnel inspect and
much greater control and accountability than was previously                  maintain all of the firefighting planes and helicopters it leases
possible, had not been fully implemented even though this                    from contractors. In addition, FS has lacked an independent,
had been projected for completion by December 2005, leaving                  full-time aviation safety manager in its Southern Region since
safeguards inadequate. In addition, procedures for screening                 2004. Instead, it has assigned aviation safety responsibilities to
incoming permit materials at the ports still needed to be                    its aviation officer, creating a conflict of interest between safety
clarified and strengthened, particularly at those ports where                concerns and flight operations.
permit screening is performed by DHS’ CBP rather than
                                                                             FS agreed to develop an overall plan to complete airworthiness
APHIS. APHIS also needed to implement a system to perform
                                                                             assessments for its firefighting aircraft and to require States
compliance inspections of active permit holders, as previously
                                                                             to assess the airworthiness of aircraft borrowed from FS and
agreed; APHIS relied on field personnel to perform these, but
                                                                             used on Federal fires. FS also agreed to require (1) aircraft
had no mechanism to ensure they were being done.
                                                                             maintenance inspectors to possess a current airframe and
APHIS agreed to develop timeframes to implement its ePermits                 powerplant certificate issued by FAA and to meet the agency’s
system, incorporating the ability to identify permit applicants              requirements for inspection authorization, and (2) contractors
who require inspections and to track permit activity at the ports            to certify as to their mechanics’ qualifications. In addition, FS
of entry. APHIS also agreed to issue instructions to inspection              agreed to require that all its regions have qualified aviation safety
personnel on screening procedures, making all accompanying                   managers on staff and, when a vacancy develops, make filling
permit documents accountable documents, and ensuring that                    such positions a high priority. (Audit Report No. 08601-48-SF,
compliance inspections are performed as required. (Audit                     FS Air Safety Program)
Report No. 33601-9-Ch, Controls Over Permits To Import
Agricultural Products)




4    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half
                                                                   Goal 1




GOVERNMENTWIDE ACTIVITIES – GOAL 1

Participation on Committees, Working Groups, and
Task Forces

n	An OIG investigator is assigned full time to the Federal
   Bureau of Investigation’s (FBI) National Joint Terrorism
   Task Force (NJTTF). The agent attends the NJTTF threat
   briefings and provides a variety of products related to
   terrorist intelligence to OIG and other agencies and offices
   within the Department. OIG investigators nationwide
   are assigned to the FBI’s local Joint Terrorism Task Forces
   (JTTFs). OIG’s participation on the JTTFs has provided
   an excellent conduit for sharing critical law enforcement
   intelligence and has served to help broaden the knowledge
   of the FBI and other law enforcement agencies about
   conducting criminal investigations with a nexus to the food
   and agriculture sector.
n	 The USDA Inspector General (IG) is a member of the
   President’s Council on Integrity and Efficiency (PCIE)
   Homeland Security Roundtable. The mission of the
   roundtable is to support the IG community by sharing
   information, identifying best practices, and participating in
   multi-agency projects related to homeland security issues
   on an ad hoc basis with various external organizations and
   governmental entities.




                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half   5
                                                               Goal 1




    ONGOING AND PLANNED REVIEWS FOR GOAL 1

    Topics that will be covered in ongoing or planned reviews under Goal 1 include:

    n	   oversight of the National Organic Program (Agricultural Marketing Service (AMS)),
    n	   followup on prior firefighter safety audits (FS),
    n	   FS contracted labor crews,
    n	   firefighting succession plans (FS),
    n	   replacement plan for firefighting aerial resources (FS),
    n	   national fire plan reporting system (FS),
    n	   fire program analysis system (FS),
    n	   implementation of flood control dams rehabilitation (Natural Resources Conservation Service (NRCS)),
    n	   USDA’s role in the export of genetically engineered agricultural commodities (APHIS, Agricultural
         Research Service (ARS), Cooperative State Research, Education, and Extension Service (CSREES), Foreign
         Agricultural Service (FAS), and Grain Inspection, Packers and Stockyard Administration (GIPSA)),
    n	   controls over genetically engineered animals and insects research (ARS, CSREES, and APHIS),
    n	   controls over genetically engineered food and agriculture imports (APHIS),
    n	   FSIS oversight of meat and poultry imports,
    n	   FSIS processes for handling meat and poultry recalls,
    n	   controls over APHIS pilot certifications,
    n	   followup of APHIS licensing of animal exhibitors,
    n	   controls over animal import centers (APHIS),
    n	   Food Emergency Response Network (FSIS),
    n	   implementation of enhancements for specified-risk materials (SRM) violations
         and improved inspection controls over SRMs (FSIS),
    n	   APHIS inspection of breeders,
    n	   APHIS monitoring of adverse event reporting,
    n	   FSIS food defense verification procedures,
    n	   impact of investigation and enforcement services on APHIS programs,
    n	   bovine spongiform encephalopathy maintenance sampling – phase IV (APHIS),
    n	   national residue program in cull cow plants (FSIS), and
    n	   evaluation of FSIS’ management controls over pre-slaughter activities.

    The findings and recommendations from these efforts will be covered in future semiannual reports as the relevant
    audits, inspections, and investigations are completed




6    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half
                                                                    Goal 2




Integrity of Benefits
                                                                             EXAMPLES OF AUDIT, INSPECTION, AND
OIG Strategic Goal 2:                                                        INVESTIGATIVE WORK FOR GOAL 2
Reduce program vulnerabilities and strengthen
program integrity in the delivery of benefits to                             Food Stamp Fraud Cases Nationwide Result in
program participants.                                                        Significant Prison Sentences and Court‑Ordered
                                                                             Restitutions of $6.6 Million
OIG conducts audits, inspections, and investigations to ensure
                                                                             n	   In November 2007, a California grocery store employee
or restore integrity in the various benefit and entitlement
                                                                                  was sentenced to 57 months in prison and ordered to
programs of USDA, including a variety of programs that
                                                                                  pay $2.7 million in restitution by a Federal court in the
provide payments directly and indirectly to individuals or
                                                                                  Central District of California. The owner of the store and
entities. The size of these programs is enormous: the Food                        the employee had trafficked in Electronic Benefit Transfer
Stamp Program (FSP) alone accounts for approximately                              (EBT) benefits from February 2004 to November 2006.
$40 billion in benefits annually, while well over $20 billion                     Search warrants resulted in the seizure of more than
annually is spent on USDA farm programs. Intended                                 $100,000 in cash, multiple bank accounts, and a 2006
beneficiaries of these programs include the working poor,                         luxury vehicle. Both the store owner and the employee were
hurricane and other disaster victims, and schoolchildren, as well                 charged with multiple violations, including food stamp
as farmers and producers. These programs support nutrition,                       trafficking and wire fraud. The store owner fled while on
farm production, and rural development.                                           bond and is currently a fugitive.

In the first half of FY 2008, we devoted 40.3 percent of our                 n	   In February 2008, the owner of a Louisiana grocery store
                                                                                  was sentenced in Federal court in the Middle District of
total direct resources to Goal 2, with 90.7 percent of these
                                                                                  Louisiana to serve 36 months in prison and 36 months
resources assigned to critical/high-impact work. A total of
                                                                                  of supervised release, and ordered to pay $1,854,921 in
78.3 percent of our audit or inspection recommendations
                                                                                  restitution for her role in discounting EBT benefits for cash.
under Goal 2 resulted in management decision within 1 year,                       From December 2004 to June 2006, the grocery store owner
and 83.7 percent of our investigative cases had criminal, civil,                  was involved in a food stamp benefit trafficking scheme that
or administrative action taken. OIG issued 10 audit reports                       resulted in losses to USDA of more than $1.8 million.
under Goal 2 during this reporting period. OIG investigations
                                                                             n	   In February 2008, a New York grocery store manager was
under Goal 2 yielded 98  indictments, 92 convictions, and
                                                                                  sentenced in the Southern District of New York to serve
about $31.1 million in monetary results during the reporting
                                                                                  30 months in prison and 36 months of supervised release,
period.                                                                           and was ordered to pay restitution of $865,000. The OIG
                                                                                  investigation disclosed that, from January 2000 to May
                                                                                  2004, the grocery store owner and manager engaged in
                                                                                  food stamp trafficking that resulted in fraud of at least
    Management Challenges Addressed                                               $1.47 million. In June 2007, the grocery store owner pled
    Under Goal 2                                                                  guilty in Federal court to conspiracy, food stamp trafficking,
                                                                                  and wire fraud. The store owner is now a fugitive. This
    n	     Interagency Communications, Coordination,                              investigation was conducted jointly with the FBI.
           and Program Integration Need Improvement                          n	   In January and February 2008, the owner, manager, and two
           (also under Goals 1, 3, and 4)                                         clerks of a small-sized convenience store in Minnesota were
    n	     Implementation of Strong, Integrated                                   sentenced in Federal court in the District of Minnesota for
           Management Control (Internal Control)                                  their roles in exchanging EBT benefits for cash. The manager,
           Systems Still Needed (also under Goal 3)                               whose brother is serving time in Federal prison in Ohio for
                                                                                  similar activities, was sentenced to serve 36 months in prison
                                                                                  and 36 months of probation; the store owner was sentenced
                                                                                  to 24 months in prison and 36 months of probation; one




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half              7
                                                                     Goal 2




      clerk was sentenced to 18 months in prison and 36 months                n	    In December 2007, five members of two organized crime
      of probation; and another clerk received probation. The                       organizations in Georgia received sentences in Federal
      owner and manager were ordered to pay $757,321 in joint                       prison ranging from 27 to 60 months for conspiracy, 42 to
      restitution, and one of their employees was ordered to pay                    65 months for interstate transportation of stolen property,
      $402,303 in restitution. The investigation disclosed that,                    and 36 months of supervised release. The OIG investigation
      between September 2006 and June 2007, the convenience                         disclosed that a total of approximately $6.48 million worth
      store redeemed approximately $840,371 in food stamp                           of infant formula and razors was shoplifted in the Atlanta
      benefits. This investigation was worked jointly with the                      metro area and then transported in rental trucks to New
      St. Paul Police Department, the FBI, the Internal Revenue                     York. This investigation was conducted jointly with FDA
      Service (IRS), and the Metro Gang Strike Force.                               and the Atlanta Police Department.
n	    In December 2007, the owner and chief executive officer                 n	    In October 2007, a Federal court in the Southern District of
      of a corporation was sentenced in the Eastern District of                     Ohio sentenced a store owner to 97 months of imprisonment,
      North Carolina to 27 months in prison and ordered to                          36 months of probation, forfeiture of $1.5 million, and
      pay a $50,000 fine and $26,988 in restitution for food                        forfeiture of $791,025 in seized currency after a guilty plea
      stamp fraud and failure to appear at sentencing. The                          for money laundering and conspiracy. The investigation
      corporation had contracted with the Food and Nutrition                        disclosed that the store owner utilized his wholesale business
      Service (FNS) and various counties in numerous States to                      to store and distribute pseudoephedrine (a decongestant)
      distribute food stamps to individual county governments.                      and other stolen/fraudulently obtained items, including
      The investigation discovered that several thousand false                      infant formula, baby products, personal hygiene products,
      documents were presented to FNS to cover up the theft of                      and cigarettes. This was a joint investigation with the Drug
      approximately $1.7 million in food stamps over 2 years. The                   Enforcement Administration, the Secret Service, the FBI,
      corporation routinely destroyed documentation for monthly                     and State and local law enforcement.
      distributions, making an accurate audit trail impossible.
      The president, vice president, accountant, and corporation
      pled guilty to multiple felony counts. In November 2002,
                                                                              Two Summer Food Service Program (SFSP)
      the owner/CEO was convicted but fled before sentencing.                 Sponsors Received Excess Reimbursements
      In December 2005, he was arrested by the U.S. Marshals                  Our audit found that two private nonprofit sponsors operating
      Service in Savannah, Georgia, under an assumed identity,
                                                                              FNS’ SFSP in Georgia received excess reimbursement of
      indicted for failing to appear at sentencing, and convicted
                                                                              more than $215,000 of the $1.28 million in program funds
      at trial in March 2007. This investigation was conducted
                                                                              they received in 2005 and 2006. The sponsors increased their
      jointly with the U.S. Postal Inspection Service.
                                                                              reimbursement by block-claiming (claiming the same number
                                                                              of meals for three or more consecutive days), serving meals
Sentences Are Obtained for Two Infant Formula                                 at unapproved sites, claiming more meals than allowed at
Cases                                                                         approved sites, operating more than the allowed number of
OIG investigates cases involving stolen infant formula, which                 sites, and claiming meals that were not kept refrigerated at the
is the main product purchased with Special Supplemental                       temperature required for food safety. In addition, for 2005 and
Nutrition Program for Women, Infants, and Children (WIC)                      2006, the State agency that oversees the program had declared
vouchers. Intelligence from a variety of law enforcement sources              24 private nonprofit sponsors as problematic and 16 sponsors
has revealed that such crimes may be widespread throughout                    as seriously deficient in program administration. However,
the Nation. The formula is stolen from large retail stores, often             the State was not enforcing its own policy to remove sponsors
by members of organized shoplifting rings, who resell it to                   from the program if their operations were found to be seriously
smaller grocery stores or warehouses dealing in stolen goods.                 deficient. FNS also had not ensured that corrective actions were
Stolen infant formula is no longer part of the retail process, and            taken on problems noted during its reviews of the program.
there is no guarantee that it is safe and healthy for America’s
infants.                                                                      We recommended that FNS (1) establish controls to follow
                                                                              up on all reviews of sponsors to ensure corrective actions have




8    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half
                                                                     Goal 2




been implemented, (2) instruct the State agency to evaluate the               Commodity Credit Corporation’s (CCC) Bioenergy
conditions disclosed during this audit and determine whether                  Program
the two sponsors warrant removal from the program, and
(3) require the State agency to initiate steps to recover $215,000            Our review, prompted by concerns about possible
in questionable reimbursements received by the sponsors. FNS                  misrepresentations of bioenergy production by producers,
generally concurred with the findings and is working with OIG                 determined that the Farm Service Agency’s (FSA) internal
to resolve technical matters related to OIG’s recommendations.                controls were sufficient to ensure the integrity of CCC’s
(Audit Report No. 27099-63-At, SFSP in Georgia)                               Bioenergy Program. Under the program, FSA made cash
                                                                              payments to bioenergy companies that increased their
FNS Food Stamp Employment and Training (E&T)                                  purchases of corn and other commodities to expand production
Program                                                                       of ethanol and biodiesel. The $544.4 million program began
                                                                              in FY 2001 and was discontinued in FY 2006, when the last
                                                                              available funds were expended.
We found that because FNS has not established performance
measures to determine the success of the Food Stamp E&T
                                                                              We found that for program payment purposes, FSA used
program as required by the Government Performance and
                                                                              standard conversion rates (in gallons per bushel), rather than
Results Act, it cannot know whether its program, with
                                                                              each plant’s actual conversion rate, to convert ethanol and
$110  million in annual expenditures, is meeting its goals or
                                                                              biodiesel gallons produced to commodity quantities used in
achieving results. In North Carolina, our audit also found that
                                                                              production. Our review of four producers found the producers’
a county manager in an employment services office modified
                                                                              actual conversion rates were greater than the standard and,
the hours employees actually worked to match the hours
                                                                              because the program did not account for these efficiencies, these
budgeted without the employees’ knowledge. These changes
                                                                              producers effectively received premiums on their Bioenergy
to timesheets caused different Federal programs to be either
                                                                              Program payments. In addition, we noted that CCC requested
overcharged or undercharged expenses for operating their
                                                                              ethanol production data using terminology unfamiliar to
programs. In addition, the North Carolina State agency had
                                                                              producers, leading to confusion on the part of some ethanol
not reconciled FY 2005 funds for the E&T program, and
                                                                              producers regarding correct reporting of their production. If a
therefore could not determine whether Federal funds totaling
                                                                              similar Bioenergy Program is offered or continued in the future,
more than $212,000 needed to be deobligated.
                                                                              FSA may want to (1)  reflect actual production efficiencies
FNS agreed to direct the North Carolina State agency to prohibit              in the rates used to convert increased biofuel production (in
altering employees’ timesheets and to reconcile its accounts.                 gallons) to increased commodity purchases for payment, and
FNS did not agree to establish performance measures for the                   (2)  request ethanol production data using ethanol industry
E&T program or to require States to submit performance data.                  terminology to ensure that producers properly report their
OIG maintains that FNS must measure the performance of the                    ethanol production data. We made no formal recommendations
program because the Food Stamp Act currently requires that                    because the program has been discontinued. (Audit Report No.
FNS monitor the State agencies “to measure the effectiveness                  03601-25-KC, CCC Bioenergy Program)
of the program to increase the numbers of household members
who obtain employment and the numbers of such members                         Producers Could Not Always Document Tree
who retain employment as a result of their participation in                   Indemnity Program (TIP) Payments
E&T programs.” (Audit Report No. 27601-16-At, Food Stamp
E&T Program)                                                                  Of the 40 producers we interviewed in an audit of FSA’s TIP,
                                                                              28 could not provide replanting, rehabilitation, cleanup,
                                                                              and/or debris removal cost documentation adequate to
                                                                              support $545,230 in TIP payments. TIP provided funds to
                                                                              eligible owners of commercially grown fruit trees, nut trees,




                                                                          USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half            9
                                                                    Goal 2




bushes, and vines that produce an annual crop and were lost or               compensated catfish producers based on the amount of feed
damaged due to 2005 Hurricanes Dennis, Katrina, Ophelia,                     purchased, and compensated producers of all other species on
Rita, or Wilma. Producers must have incurred damages to their                the amount of actual loss. These inconsistent approaches are
trees, bushes, and/or vines that would cost at least $90 per acre            ultimately attributable to FSA’s lack of adequate control over
for replanting, rehabilitation, cleanup, and/or debris removal.              the States’ implementation of the program.

Although FSA informed the producers that they were required                  FSA agreed to develop a methodology for future grant
to document and maintain support for their costs, and that                   programs to better direct grant funds to the areas most directly
they would be required to provide such documentation to                      affected. FSA also agreed to develop and implement controls
FSA in the event the producers were selected for spot check,                 for future grant programs to ensure that such programs achieve
FSA did not provide producers with guidance detailing what                   their intended results and treat program participants equitably.
constituted adequate documentation. Also, at the time of our                 (Audit Report No. 03601-48-Te, 2005 Hurricane Initiatives:
audit, FSA had not issued procedures to spot-check producers’                Aquaculture Grants to States)
documentation of TIP-related costs.
                                                                             Joint Investigation Results in Two North Carolina
We recommended that FSA provide producers with detailed
                                                                             Men Being Convicted and Ordered To Forfeit
guidance on maintaining acceptable documentation of costs
                                                                             $4.5 Million for Conspiracy Regarding FSA’s Tobacco
for future programs and finalize and implement spot-check
procedures to verify documentation supporting TIP payments.
                                                                             Program
We also recommended that FSA recover the $545,230 in
                                                                             In October 2007, a Federal court held two North Carolina
unsupported TIP payments. The agency is implementing
                                                                             men jointly and severally liable for a $4.5 million forfeiture
corrective actions based on the report. (Audit Report No.
                                                                             judgment. The two North Carolina men were found guilty of
03601-13-At, Hurricane Relief Initiative – TIP)
                                                                             conspiracy to structure financial transactions to avoid filing
                                                                             Currency Transaction Reports (CTRs) and to commit fraud
Controls Over the Approval and Distribution of                               regarding the FSA Burley Tobacco Marketing Program. The
Aquaculture Grant Program (AGP) Funds                                        men used an extensive network of accomplices, family, and
                                                                             friends to conduct more than $4.5 million of transactions in
We found that FSA needs to improve controls over the approval                increments under $10,000 to avoid filing the required CTR
and distribution of future grant funds such as those distributed             reports. It was determined that both men intentionally engaged
under AGP. AGP provided $25 million in block grants to                       in fraudulent actions regarding the proper identification of
Alabama, Florida, Louisiana, Mississippi, North Carolina, and                tobacco grown under this FSA program. This investigation was
Texas to mitigate producers’ aquaculture losses due to the 2005              conducted jointly with the IRS, the FBI, and the Tennessee
Hurricanes Dennis, Katrina, Ophelia, Rita, and Wilma. We                     Bureau of Investigation.
found that FSA did not allocate the $25 million in AGP funds
based on estimated losses; instead, it made allocations based on
                                                                             Illinois Producer Sentenced to Prison in Conversion
the number of farms and value of production in the States. In
addition, two States, on their own accord and counter to their
                                                                             Investigation
agreements with FSA, compensated producers based on criteria
                                                                             In November 2007, a producer from Illinois was sentenced
other than the producers’ losses: Mississippi paid producers
                                                                             in Federal court to serve 21 months in prison, followed by
based on feed purchased, and Alabama paid producers based
                                                                             36 months of supervised release, and ordered to pay $192,698
on surface acres of water. Moreover, because of different
                                                                             in restitution to USDA. The producer obtained two CCC
methodologies, Louisiana paid certain counties at a higher
                                                                             farm-stored loans, totaling $167,190, and pledged corn and
rate, but could not provide evidence of how it determined
                                                                             soybeans as collateral for the loans. The OIG investigation
which counties would receive this higher rate; Mississippi
                                                                             disclosed that the producer converted the loan collateral to his




10     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half
                                                                   Goal 2




own use without authorization from FSA to sell the collateral
and did not apply any of the proceeds derived from the grain
sales to his outstanding FSA loans.
                                                                            GOVERNMENTWIDE ACTIVITIES – GOAL 2

Dairy Firm Misreported Nonfat Dry Milk Pricing Data                         Participation on Committees, Working
                                                                            Groups, and Task Forces
Our review found that a large dairy firm misreported nonfat
dry milk volume and price information when submitting its                   n	    In response to the devastation in the Gulf Coast
                                                                                  caused by Hurricanes Katrina, Rita, and Wilma,
weekly reports to the National Agricultural Statistics Service
                                                                                  the PCIE Homeland Security Roundtable created
(NASS), beginning in 2002. The incorrect data were aggregated
                                                                                  a Disaster Recovery Working Group, now in its
with data from other firms, published by NASS in the Dairy
                                                                                  third year. USDA OIG and 17 other Inspectors
Products Prices report, and factored into AMS’ Federal milk                       General have been meeting on a quarterly basis
marketing order formula. According to AMS, this caused the                        to discuss their experiences in auditing and
total value of milk to be understated by $50 million between                      investigating hurricane recovery efforts. Topics
April 29, 2006, and April 14, 2007.                                               covered, in addition to the ongoing work, include
                                                                                  coordination between Departments, data-sharing
OIG recommended that NASS request all reporting firms                             to prevent duplicate assistance, contracting issues,
to review their previously submitted data and provide any                         preparation for future disasters, and overall lessons
revisions for the period from January 4, 2002, through                            learned.
April 22, 2006. AMS will then be able to utilize accurate
information in its milk pricing formulas to determine the real              n	    OIG special agents have been participating in a
                                                                                  Hurricane Katrina/Rita Fraud Task Force since
impact of the understatement or overstatement of the value of
                                                                                  January 2006. From November 1, 2005, to date,
milk. NASS also should review and modify the questions on the
                                                                                  OIG has conducted 48 cases in which FNS, FSA,
Annual Validation Worksheet to solicit an accurate response for
                                                                                  and Rural Development (RD) have been defrauded
each question and verify that all field offices have implemented                  by individuals who have submitted false claims
NASS’ plan to complete the Annual Validation Worksheet for                        or provided false statements to obtain Federal
all reporting firms during a site visit. In addition, NASS needs                  benefits. From June 2006 to date, 88 individuals
to modify the weekly data collection instruments by requiring                     have been indicted, 30 have been convicted and
data providers to confirm that they fully understand the                          sentenced, and fines and restitution thus far have
requirements they must meet to accurately report their firm’s                     totaled $26,725 and $451,975, respectively.
data and verify that changes to strengthen the internal controls                  The task force is expected to continue through
for the data included in the Dairy Products Prices report have                    FY 2009.
been implemented.
                                                                            n	    OIG investigators are participating on a task force
                                                                                  to investigate criminal violations of the Food Stamp
NASS has implemented changes in its internal controls
                                                                                  Program and the Special Supplemental Nutrition
to improve the data collection and review process for the
                                                                                  Program for Women, Infants, and Children (WIC).
Dairy Products Prices report. We concurred with the agency’s
                                                                                  Members include the Michigan State Police and
response and have reached management decision for all five                        IRS’ Criminal Investigation organization. The
recommendations. (Inspection Report No. 26901-01-IR,                              FBI, Social Security Administration OIG, and
Survey and Estimation Internal Controls for Nonfat Dry Milk                       Immigration and Customs Enforcement have
and the Dairy Products Prices Report)                                             provided assistance during search and arrest
                                                                                  warrant operations. The initiative has resulted in
                                                                                  43 arrests and 28 search warrants served in the




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half             11
                                                                     Goal 2




     	       Detroit metropolitan area. Criminal prosecutions                 ONGOING AND PLANNED REVIEWS FOR GOAL 2
             are being pursued through the United States
             Attorney’s Office for the Eastern District of                    Topics that will be covered in ongoing or planned
             Michigan and the Michigan Attorney General’s
                                                                              reviews under Goal 2 include:
             Office. Forfeiture actions have been started by the
             United States Attorney’s Office.
                                                                              n	   continued monitoring of EBT
                                                                                   implementation (FNS),
     n	      An OIG investigator has been working with the
                                                                              n	   the Child and Adult Care Food Program (FNS),
             FBI’s Safe Streets Task Force in Indianapolis,
                                                                              n	   WIC vendor monitoring (FNS),
             Indiana, since 2000. The mission of the task force
                                                                              n	   FSP administrative costs in New Jersey (FNS),
             is to deter street gang and drug-related violence, as
                                                                              n	   Rural Business-Cooperative Service’s (RBS)
             well as seek the most significant fugitives wanted
                                                                                   Intermediary Relending Program,
             for crimes of violence through long-term, proactive,
                                                                              n	   effectiveness and enforcement of debarment and
             and coordinated teams of Federal, State, and local
                                                                                   suspension regulations throughout USDA,
             law enforcement officers and prosecutors.
                                                                              n	   Oklahoma Rural Housing Service (RHS)
                                                                                   Rural Rental Housing (RRH) company,
     n	      An OIG investigator is participating on the Ohio
                                                                              n	   RHS Texas community connect
             Organized Crime Investigations Commission
                                                                                   grants closeout audit,
             (OOCIC) Task Force in Dayton, Ohio. OOCIC
                                                                              n	   controls over issuance of appropriated funds
             provides assistance to local law enforcement
                                                                                   by Delta Regional Authority (RD),
             agencies in the investigation of organized criminal
                                                                              n	   RD rural area designations,
             activity. OIG investigators have participated in the
                                                                              n	   RHS controls over management
             OOCIC Task Force since 1996 and have conducted
                                                                                   companies in Puerto Rico,
             investigations involving welfare recipients, food
                                                                              n	   RHS RRH project insurance maintenance
             stamp trafficking, mortgaged farm equipment
                                                                                   and reserve account funding – Florida,
             stolen from farmers, stolen property trafficking,
                                                                              n	   RHS RRH maintenance costs
             and dogfighting. OIG involvement with the
                                                                                   and inspection procedures,
             taskforce has resulted in the successful prosecution
                                                                              n	   controls over lender activities in RHS’ Single
             of more than 145 individuals, with a number of
                                                                                   Family Housing (SFH) Loan Program,
             additional cases pending. This has resulted in
                                                                              n	   RD’s rural critical access hospitals,
             hundreds of charges for crimes such as Racketeer
                                                                              n	   RHS Community Facilities
             Influenced and Corrupt Organization Act (RICO)
                                                                                   Guaranteed Loan Program,
             violations, auto theft, breaking and entering,
                                                                              n	   Rural Utilities Service (RUS) controls over Water
             narcotics trafficking, felonious assault, weapons
                                                                                   and Waste Disposal Loan and Grant Program,
             violations, illegal gambling, food stamp trafficking,
                                                                              n	   RUS Water and Wastewater
             money laundering, conspiracy, dogfighting, and
                                                                                   System Grants – Alaska,
             other criminal violations.
                                                                              n	   RUS Broadband Loan Programs,




12        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half
                                                            Section
                                                                 GoalHeading
                                                                       2




n	    Farm and Ranch Lands Protection
      Program, review of non-Governmental
      organizations (NRCS),
n	    implementation of the Tobacco Transition
      Payment (Tobacco Buyout) Program (FSA),
n	    interest assistance on guaranteed farm loans (FSA),
n	    review of adjusted gross income
      limitation (NRCS and FSA),
n	    effectiveness of status reviews in assessing
      producer compliance with conservation
      provisions (NRCS and FSA),
n	    crop loss and quality adjustments for aflatoxin-
      infected corn (Risk Management Agency (RMA)),
n	    price support provisions for pulse crops (FSA),
n	    commodity programs for peanuts (FSA),
n	    price discovery efforts for various crops
      reported nationwide (NASS),
n	    group risk crop insurance (RMA),
n	    RMA’s implementation of the approved insurance
      providers’ appendix IV/quality control reviews,
n	    evaluation of RMA’s national program
      operations reviews,
n	    management controls over new
      producer status (RMA),
n	    controls over catastrophic crop
      underwriting (RMA), and
n	    penalties assessed for inaccurate
      reporting of crop acreage (RMA).

The findings and recommendations from these
efforts will be covered in future semiannual reports
as the relevant audits, inspections, and investigations
are completed.




                                                                    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half   13
                                                                  Goal 3




Management Improvement Initiatives
                                                                           reporting. One of the more significant dangers USDA faces
OIG Strategic Goal 3:                                                      is a cyberattack on its IT infrastructure, whether by terrorists
                                                                           seeking to destroy unique databases or criminals seeking
Support USDA in implementing its management                                economic gains.
improvement initiatives.
                                                                           In the first half of FY 2008, we devoted 34.2 percent of our total
OIG conducts audits, inspections, and investigations that                  direct resources to Goal 3, with 98.8 percent of these resources
focus on such areas as improved financial management                       assigned to critical/high-impact work. A total of 91.5 percent
and accountability, IT security and management, research,                  of our audit or inspection recommendations under Goal 3
real property management, employee corruption, and the                     resulted in management decision within 1 year, and 63 percent
Government Performance and Results Act. Our work in                        of our investigative cases had criminal, civil, or administrative
this area is vital because the Department is entrusted with                action taken. OIG issued 14 audit reports under Goal 3 during
$128 billion in public resources annually. The effectiveness               this reporting period. OIG investigations under Goal 3 yielded
and efficiency with which USDA manages its assets are critical.            two indictments, no convictions, and $450,588 in monetary
USDA depends on IT to efficiently and effectively deliver                  results during the reporting period.
its programs and provide meaningful and reliable financial



     Management Challenges Addressed Under Goal 3

     n	      Interagency Communications, Coordination, and Program Integration Need Improvement (also under Goals 1, 2, and 4)

     n	      Implementation of Strong, Integrated Management Control (Internal Control) Systems Still Needed (also under Goal 2)

     n	      Continuing Improvements Needed in IT Security (also under Goal 1)

     n	      Implementation of Improper Payment Act Requirements Needs Improvement

     n	      Material Weaknesses Continue To Persist in Civil Rights Control Structure and Environment

     n	      USDA Needs To Develop a Proactive, Integrated Strategy To Assist American
             Producers To Meet the Global Trade Challenge (also under Goal 1)

     n	      Better FS Management and Community Action Needed To Improve the Health of the
             National Forests and Reduce the Cost of Fighting Fires (also under Goals 1 and 4)




EXAMPLES OF AUDIT, INSPECTION, AND                                         the effectiveness of these projects. RUS officials believed that
INVESTIGATIVE WORK FOR GOAL 3                                              they do not need a strategic plan specific to RUS because it
                                                                           is one of the mission areas within RD, and RD has a strategic
Formal Strategy for Renewable Energy Projects Is                           plan. As a result, RUS has not maximized the use of available
Needed                                                                     methods of funding, such as loan and grant combinations, to
                                                                           satisfy requests for renewable energy grant project funds. By
Our review determined that RUS’ internal controls over its                 using loan and grant combinations, RUS should be able to use
electric loan and grant program, which includes renewable                  fewer grant funds and more loan funds while maintaining both
energy projects, were generally adequate. However, we found                the applicant’s ability to repay the loan and providing sufficient
that RUS did not have a formal strategy to maximize the use                working capital and cashflow to sustain the project. RUS agreed
of funds set aside for renewable energy projects and to ensure             to develop a formal strategy to maximize the effectiveness of




14        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half
                                                                             Goal 3




renewable energy projects, including the development of goals                         FSA agreed to review all employee and county committee
and performance measures as well as the use of grant and loan                         applications not approved at the appropriate level, remind
combinations to maximize available loan and grant funds.                              its State and county office employees of relevant approval
(Audit Report No. 09601-07-Te, Implementation of Loan and                             authority rules, and develop guidance to limit pre-approval
Grant Programs That Promote Renewable Energy)                                         onsite inspection waivers for those types of ECP projects
                                                                                      that FSA determines are least capable of being evaluated
                                                                                      after rehabilitation work has been performed. The audit
Emergency Conservation Program (ECP) Helps
                                                                                      was conducted in conjunction with the PCIE as part of its
Producers Rehabilitate Farmland Damaged by 2005                                       examination of the Federal Government’s relief efforts in the
Hurricanes                                                                            aftermath of Hurricanes Katrina and Rita. (Audit Report No.
                                                                                      03601-27-KC, Hurricane Relief Initiatives: ECP)
Overall, we concluded that the flexibility provided to the States
by FSA’s ECP allowed them to better facilitate producers’ timely
recovery from damage caused by the successive hurricanes that                         Financial Management Controls Over Reinsurance
devastated farmland throughout the Gulf Coast in 2005. FSA                            Companies
State offices were authorized to increase ECP approval limits
and waive pre-approval onsite inspections of the extent of                            After RMA had incurred more than $41.7 million in funding
damage. However, we did find that FSA county personnel                                closeout operations since 2003 for a failed reinsured company
approved applications from both their fellow employees and                            that had been the largest participant in the Federal crop
their superiors, which was not allowed by procedure. Also,                            insurance program, OIG and the Government Accountability
although FSA replaced its pre-approval onsite inspections                             Office (GAO) made recommendations to RMA to strengthen its
with post-approval spot checks of 25  percent of approved                             management control over reinsured companies. This reporting
applications, the spot checks did not always provide reasonable                       period, we revisited issues raised in those reports and found
assurance that claimed costs were commensurate with the work                          that RMA has improved its financial management controls
or services performed; e.g., once debris had been removed, it                         over reinsurance companies, has expanded its financial and
was difficult to gauge the extent or location of the original                         operational analyses of those companies, and has conducted
damage and, therefore, the actual expenditures required to                            compliance reviews of adherence to regulations and policies.
rehabilitate the land.
                                                                                      RMA has initiated agreements that enable information sharing
                                                                                      with State insurance departments. However, its Reinsurance
                                                                                      Services Division still needs to develop written procedures for
                                                                                      its operational analyses of reinsured companies now that it
                                                                                      has expanded them. Further, it needs to coordinate with State
                                                                                      insurance departments to determine what information should
                                                                                      be shared and the optimal frequency for sharing it, and then
                                                                                      implement a policy to routinely do so. RMA disagreed with our
                                                                                      analysis of its coordination with State insurance departments.
                                                                                      RMA stated that it provided substantial documentation during
                                                                                      the audit to demonstrate that the frequency and quantity of
                                                                                      information shared with the States is substantially greater now
                                                                                      than it was prior to the cited insurance company’s failure.
                                                                                      To reach management decision, we need RMA’s plan and
                                                                                      timetable for coordinating with State insurance regulators on
Debris at sites OIG visited had been burned or piled at various locations,            their supplemental information needs, and RMA’s plan and
which made it impractical to verify the extent of the damage. OIG photo.              corrective action for how it expects to communicate those




                                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half          15
                                                                    Goal 3




needs with the State insurance departments. (Audit Report No.                food stamp and $183,856 in Temporary Assistance for Needy
05099-111-KC, RMA Financial Management Controls Over                         Family (TANF) benefits. The former employee opened and
Reinsurance Companies)                                                       maintained numerous fictitious case files, and had the food
                                                                             stamp and TANF benefits mailed to post office boxes she held
Operation Talon Still Going Strong                                           in the fictitious names.


OIG began Operation Talon in 1997 to locate and apprehend                    Former State Employee Sentenced for Fraudulently
fugitives, many of them violent offenders, who are current or                Receiving Government Benefits
former food stamp recipients. As of March 31, 2008, Operation
Talon had resulted in 11,995 arrests of fugitive felons during               In October 2007, a former State of Maine employee was
joint OIG-State and local law enforcement operations. During                 sentenced in Federal court in the District of Maine to 12 months
this reporting period, OIG agents conducted Talon operations                 in prison, and ordered to pay restitution of $120,917 and a
in 4 States, making a total of 215 arrests. OIG combined forces              $400 court fee for providing false statements to Government
with Federal, State, and local law enforcement agencies to arrest            agencies to fraudulently receive benefits, including food
11 fugitives in Alabama, 8 in California, 154 in Massachusetts,              stamps. The judge also ordered that the individual be deported
and 42 in New Jersey for offenses including assault, burglary,               to Canada upon her release from prison. The individual
assorted drug charges, robbery, fraud, forgery, driving under                previously had pled guilty in June 2007 to two counts of
the influence, rape, sex offenses, offenses against family and               submitting false documentation and making false statements
children, larceny, stolen property, weapons violations, and                  to obtain food stamps and other benefits. This investigation
other offenses.                                                              was conducted jointly with the U.S. Department of Health
                                                                             and Human Services OIG.
Former FS Employee Sentenced for Embezzlement
                                                                             Former Indiana County Employee Working at a USDA
In November 2007, a former FS employee was sentenced                         Service Center Sentenced for Possession of Child
in the District of Oregon to serve 21 months in prison and                   Pornography
36 months of supervised release and was ordered to pay
restitution of $642,319. The OIG investigation disclosed that                In December 2007, a former employee with Allen County’s
the employee embezzled at least $642,319 from FS and used                    Indiana Soil and Water Conservation District (SWCD) was
the funds for personal use, including gambling. The individual’s             sentenced in Allen County Superior Court to 24 months of
employment with FS was terminated in August 2007. This case                  probation for possession of child pornography. As part of the
was conducted jointly with IRS Criminal Investigation.                       sentencing, the judge ordered the former employee to undergo
                                                                             counseling, to have no unsupervised visits with children under
Wife of Montana Sheriff Sentenced for                                        the age of 18, and to register as a sex offender in the State
Embezzlement                                                                 of Indiana. The former employee confessed to using SWCD-
                                                                             owned computers to upload and download child pornography
In January 2008, a former employee of the Montana                            images to and from the Internet while he was working in the
Department of Public Health and Human Services, who is also                  USDA Service Center. The former employee also confessed to
the wife of a Montana county sheriff, was sentenced in the                   posting child pornography images to a photo album on a popular
District of Montana to serve 54  months in prison, followed                  Internet site, using a computer at his new place of employment
by 36 months of probation, and was ordered to pay $206,233                   to access the images, and downloading child pornography
in restitution to the Montana Department of Public Health                    images to one of his personally owned computers.
and Human Services. The investigation disclosed that, over a
10-year period, the former employee embezzled $22,377 in




16     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half
                                                                    Goal 3




FSA’s Process for Identifying Improper Payments                              a prior recommendation regarding processing access requests,
Results in Reliable Estimates                                                and (3) finalize the contingency plan for the STARS II
                                                                             primary computer facility, the Benefit Redemption System
We concluded that the process FSA was using in 2007 to arrive                Branch (BRSB). Also, the Dallas Field Office did not adhere
at a statistically valid estimate of improper payments made                  to established procedures for obtaining supervisory approval
in its high-risk programs was adequate and would result in                   before authorizing stores in STARS II.
reliable estimates of improper payments. The Department’s
Chief Financial Officer had requested our evaluation of the                  In response to our audit, FNS (1) agreed to implement controls
process because of questionable reporting in previous years.                 to ensure that only authorized individuals have physical access
                                                                             to restricted areas, (2) has developed and implemented controls
We did identify two conditions that could have impacted the                  to ensure sensitive data are removed from damaged hard drives,
estimates but were corrected by FSA before the reporting of final            (3) is developing an automated process for processing system
estimates in USDA’s Performance and Accountability Report.                   access requests and approval and agreed to continually update
To determine whether an improper payment had occurred,                       the BRSB contingency plan, and (4) instructed the Dallas Field
FSA used a more stringent timeframe for lien searches before                 Office to follow established procedures for authorizing stores
disbursement of Marketing Assistance Loans (MAL) than was                    in STARS II and reviewing system data for significant changes.
required by regulation. Lien searches had been performed                     (Audit Report No. 27501-02-Hy, Application Control Review
outside the timeframe FSA specified but before disbursement                  of FNS’ STARS II)
and obtaining of the required security on loan collateral. FSA
agreed that this was improper and revised the determination
of an improper payment. We also identified an error in the                   USDA FY 2007/2006 Consolidated Financial
statistical projection that understated improper payments for                Statements – Qualified Opinion in FY 2007
the MAL Program by $176 million. The statistician had failed
to use revised payment codes provided by FSA to develop the                  The USDA FY 2007 Consolidated Financial Statements
improper payment estimate. FSA rectified this error.                         received a qualified opinion. The qualified opinion on the
                                                                             Consolidated Financial Statements was due to significant
FSA agreed to ensure that the guidance for conducting                        revisions made to Rural Development’s (RD) credit reform
improper payment reviews was revised to reflect the revision                 processes related to the Single-Family Housing Program
to the improper payment determination for MAL lien                           cashflow model and subsidy reestimates. As such, OIG was
searches, and that controls are implemented to confirm that                  unable to obtain sufficient, appropriate evidence to support RD’s
improper payment estimates are accurately based on the results               and USDA’s Financial Statement amounts as of September 30,
of payment reviews. (Audit Report No. 03601-0014-Ch,                         2007. These revisions materially impacted RD’s and USDA’s
Identification and Reporting of Improper Payments in FSA                     Consolidated Financial Statements as a whole and resulted
High-Risk Programs)                                                          in qualified opinions. We also identified three significant
                                                                             deficiencies in internal controls. Improvements were needed in
                                                                             overall financial management, IT security and controls, and
IT Security in the Store Tracking and Redemption                             certain financial management practices and processes. The first
System II (STARS II) Needs Improvement                                       two deficiencies were considered to be material weaknesses.
                                                                             In addition, three instances of noncompliance were identified
FNS properly documented and accredited STARS II and
                                                                             relating to the Federal Financial Management Improvement
established adequate application controls to ensure that the
                                                                             Act of 1996 (FFMIA), the Anti-Deficiency Act (ADA), and
system contained valid, complete, and accurately processed
                                                                             Managerial Cost Accounting Practices. The Office of the
data. However, we noted some weaknesses that FNS has
                                                                             Chief Financial Officer (OCFO) agreed with the findings
agreed to address to further strengthen the security of
                                                                             reported and has immediate and long-term plans to address
STARS II. This includes the need to (1) improve security
                                                                             the weaknesses discussed in the report.
over computer resources, (2) implement actions agreed to in




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half            17
                                                                       Goal 3




In addition to auditing the Department’s Consolidated                           n	    Federal Crop Insurance Corporation (FCIC)/RMA –
Financial Statements, audits of the financial statements of five                      Unqualified Opinion. No weaknesses were identified
USDA agencies were also performed. Details of these financial                         related to internal controls.
audits are as follows:
                                                                                (Audit Reports Nos. 50401-62-FM, 85401-14-FM,
n	    RD – Qualified Opinion in FY 2007. The RD                                 05401-0016-FM, 08401-0008-FM, 06401-0022-FM, and
      consolidated financial statements for FY 2007 received                    27401-32-Hy, respectively, for the USDA, RD, FCIC, FS,
      a qualified opinion because of deficiencies we identified                 CCC, and FNS Financial Statements for FY 2007/2006)
      after RD made significant revisions to its credit reform
      processes related to the Single-Family Housing Program
      cashflow model and subsidy reestimates. Our report on
      internal controls identified two material weaknesses related
      to improvements needed in financial management of the                          GOVERNMENTWIDE ACTIVITIES – GOAL 3
      credit reform processes and IT security. In addition, we
      reported a significant deficiency related to improvements
      needed over the Rural Telecommunication Program’s
                                                                                     Review of Legislation, Regulations,
      unliquidated obligation certification process. We also                         Directives, and Memoranda
      identified an instance of noncompliance related to FFMIA.
      We recommended that RD improve its financial reporting                         n	   Federal Agency Data Protection Act. OIG reviewed
      controls over credit reform. RD generally agreed with the                           H.R. 4791, entitled the “Federal Agency Data
      findings and recommendations in the report.                                         Protection Act,” which would amend the
                                                                                          E-Government Act in a number of ways and
n	    CCC – Unqualified Opinion. The audit of CCC                                         protect personally identifiable information (PII)
      identified four significant deficiencies (the first three                           of individuals that is maintained in or transmitted
      are material weaknesses) in CCC’s information security                              by Federal agency information systems. OIG
      controls, financial system functionality and funds control,                         expressed concern that there would be inconsistent
      management’s review procedures over the cashflow models                             determinations of what is and is not PII under the
      for direct and credit guarantee programs, and producer                              current proposed PII definition and recommended
      monitoring procedures. Three instances of non-compliance                            that concrete examples be provided. OIG also
      were identified related to the Federal Information Security                         recommended that the legislation clarify whether
      Management Act of 2002 (FISMA), FFMIA, and ADA.                                     PII includes publicly available information that is
      CCC generally concurred with the significant deficiencies                           lawfully made available to the public from Federal
      discussed in the report and is implementing corrective                              records.
      actions.
                                                                                     n	   Improper Payments Elimination and Recovery Act
n	    FS – Unqualified Opinion. We identified one material                                of 2008. OIG reviewed S. 2583, entitled the
      internal control weakness in FS’ IT general controls                                “Improper Payments Elimination and Recovery
      environment. One instance of noncompliance was identified                           Act of 2008,” which would require the Office of
      related to FFMIA. FS agreed with the recommendations                                Management and Budget (OMB) to determine
      and is in the process of developing specific corrective action                      when an agency should be required to obtain
      plans.                                                                              an opinion on internal controls over financial
                                                                                          reporting. OIG expressed concern that this
n	    FNS – Unqualified Opinion. The audit of FNS did not                                 requirement would double the amount of time
      identify any significant deficiencies; however, one instance                        and resources needed for OIG and independent
      of noncompliance was reported related to the Improper                               audit contractors to conduct USDA’s financial
      Payments Information Act of 2002.                                                   statement audits. Also, the legislation would
                                                                                          require OIG to perform annual audits to ascertain




18     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half
                                                            Goal 3




     whether USDA is in compliance with the Improper                          our fieldwork, OIG auditors observed an AIP’s
     Payments Act. OIG expressed concern that these                           sales agent who had misused the nursery crop
     new requirements would leave few if any resources                        insurance peak inventory provisions to provide
     available for OIG to conduct other audit work.                           ineligible coverage and subsequent indemnity
     Additionally, OIG opined that the requirement for                        payments for some of its insured producers. At
     such annual audits would not be an efficient use                         our suggestion, RMA included a section in the
     of resources, as it would not provide agencies with                      bulletin on nursery crop provisions from the peak
     sufficient time to make corrections and address                          inventory endorsement and reminded AIPs that
     any recommendations before the following year’s                          peak endorsements must be properly supported
     audit. OIG recommended, at a minimum, that                               by a physical inventory. The bulletin was issued
     (1) the IG be able to exercise some judgment as                          February 28, 2008.
     to which relevant agency programs to review and
     also be able to exercise some discretion as to the
     scope of that review, and 2) the schedule for any               Participation on Committees, Working Groups, and
     such audits be revised to allow more time between               Task Forces
     audits (e.g., “once every 3 years” or “periodically”
                                                                     n	   PCIE Legislation Committee. The USDA IG continues to
     at the IG’s discretion).
                                                                          serve the IG community as the Chair of the Legislation
n	   As part of its continuing efforts to strengthen                      Committee of the PCIE. During the reporting period,
     the Federal nursery crop insurance program,                          the Legislation Committee reviewed pending bills that
     RMA requested OIG Audit staff comments                               would amend the IG Act and provided comments as
     and feedback on its draft 2008 Nursery Loss                          requested to staff of the House Oversight and Government
     Adjustment Standards Handbook (LASH).                                Reform Committee and the Senate Homeland Security
     During the past year, RMA has worked with and                        and Governmental Affairs Committee (HSGAC). On
     provided ongoing assistance to auditors reviewing                    October 3, 2007, the House considered and passed H.R.
     nursery crop indemnity payments for losses caused                    928, the “Improving Government Accountability Act.” On
     by Hurricanes Katrina, Rita, and Wilma. OIG                          November 14, 2007, the Senate HSGAC favorably voted
     provided comments to strengthen this essential                       S. 2324, the “Inspector General Reform Act of 2007” (the
     document based on the mismanagement and                              Senate counterpart to H.R. 928) out of committee.
     abuse by loss adjusters we observed during our
                                                                     	    On an ongoing basis, the Legislation Committee monitored
     fieldwork. We suggested that loss adjusters, at the
                                                                          and tracked all IG-related legislation that was introduced
     beginning of the loss adjustment process, ensure
                                                                          in Congress and kept the affected IGs notified of these
     that (1) documentation exists, is reconciled to,
                                                                          bills’ progress. The committee considered specifically the
     and supports producers’ insured inventory values;
                                                                          Web site requirements imposed upon OIGs and their host
     and (2)  required pre-acceptance inspections to
                                                                          establishments by the 2008 Consolidated Appropriations
     confirm the eligibility of the property being
                                                                          Act, as well as S. 2583, the “Improper Payments Elimination
     insured were performed. OIG also suggested that
                                                                          and Recovery Act of 2008,” which would amend the
     adjusters support their determinations of plant
                                                                          Improper Payment Information Act of 2002 and impose
     recovery time needed.
                                                                          additional requirements on OMB, Federal agencies, and the
                                                                          executive branch IGs.
	    OIG also reviewed and commented on a draft of
     a manager’s bulletin that RMA was issuing to all                n	   The USDA IG is a member of the National Procurement
     Approved Insurance Providers (AIP) to discuss                        Fraud Task Force, formed by the Department of Justice
     OIG’s preliminary audit findings and remind AIPs                     (DOJ) in October 2006 as a partnership among Federal
     that insured nursery inventory values must be                        agencies charged with the investigation and prosecution of
     supported by adequate inventory records. During                      illegal acts in connection with Government contracting and
                                                                          grant activities. The task force has worked to better allocate




                                                               USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half              19
                                                                       Goal 3




     resources and improve coordination in procurement and                      n	   Financial Statement Audit Network (FSAN). OIG auditors
     grant fraud cases and otherwise to accelerate investigations                    are members of the FSAN workgroup. FSAN consists of
     and prosecutions. During this period, the task force has                        inspector general auditors from numerous Federal agencies,
     developed training programs on procurement and forensic                         and its main purpose is to share ideas, knowledge, and
     auditing. At the regional level, OIG Investigations field                       experiences in the audit community. On March 14, 2008,
     offices in the Northeast Region and Western Region                              USDA OIG, in conjunction with FSAN, hosted the GAO/
     participate on Procurement Fraud Task Forces initiated by                       PCIE Financial Statement Audit Update Conference. The
     the local United States Attorneys’ Offices. OIG investigators                   conference was attended by more than 350 financial and
     in the Northeast Region are participating in a multi-agency                     IT auditors from the Federal, State, and private sector
     investigation involving surety bond fraud. Surety bonds are                     communities.
     one of the requirements necessary to obtain a Government
     contract. OIG also participates in one of the working groups
                                                                                n	   A-136 Subcommittee. USDA OIG and the Department’s
     formed by the task force, the Legislation Committee, which
                                                                                     Office of Chief Financial Officer are members of the
     has produced a white paper discussing proposals for reform
                                                                                     Subcommittee on OMB Circular No. A-136, Financial
     of the procurement process.
                                                                                     Reporting Requirements. The subcommittee’s purpose was
n	   The USDA IG, as a member of the PCIE Audit Committee,                           to analyze various topics and submit recommendations to
     works to provide guidance to the Federal audit community                        OMB by April 2008 for possible inclusion in the anticipated
     by sponsoring reviews of Governmentwide issues and                              OMB Circular No. A-136 revision scheduled for May 2008.
     developing professional standards for audit activities.                         Topics being discussed include:
     During this period, the committee addressed issues                              	 Accounting and budgetary difference reporting
     involving auditor training, proposed legislation requiring                          requirements
     audits of improper payments, peer reviews, and reviews of                       	 Performance and Accountability Report (PAR) pilot
     IT.                                                                                 evaluation
                                                                                     	 Compilation and presentation of PAR
                                                                                     	 Statement of Financing
n	   National Single Audit Sampling Project. Conducted under
                                                                                     	 Fiduciary Activity Footnote
     the auspices of the Audit Committee, the PCIE issued a
                                                                                     	 Program performance evaluations included in PAR
     study, Report on National Single Audit Sampling Project,
                                                                                     	 Asbestos reporting requirements
     to OMB in June 2007 on the quality of audits performed
                                                                                     	 Statement of Net Cost
     under Circular A-133 and how to improve them. Prompted
                                                                                     	 Parent-child reporting
     by the PCIE study, but not under the purview of PCIE,
     OMB has designated a number of Federal agencies to
                                                                                n	   The USDA OIG National Computer Forensic Division
     examine whether the Single Audit process should be changed
                                                                                     (NCFD) is an active participant in the newly formed
     and, if so, how. Of the eight Single Audit Improvement
                                                                                     PCIE IT Committee’s Investigations Subcommittee and
     Workgroups formed, OIG is participating in the one
                                                                                     the Working Group on Computer Forensics. NCFD
     entitled “The New and Improved Single Audit Process.”
                                                                                     will participate in a training session co-sponsored by
     In considering how the total Single Audit Environment
                                                                                     the PCIE IT Committee and DOJ’s Computer Crimes
     should be improved, this workgroup is trying to ensure
                                                                                     and Intellectual Property Section. The subcommittee is
     that the issues raised are applied to the collective efforts of
                                                                                     currently reviewing Encryption Key Escrow policies within
     all eight workgroups. This workgroup is also seeking input
                                                                                     each participating agency to help establish a best-practices
     from the audit community—Federal (including GAO),
                                                                                     document related to key escrow. The subcommittee is also
     State, and local governmental auditors, and certified public
                                                                                     reviewing the possibility of developing a computer forensic
     accountants—as well as the report user community. In
                                                                                     lab certification for all OIG forensic labs.
     addition, the workgroup is coordinating with OMB to
     implement changes.




20    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half
                                                                   Goal 3




n	   A forensic analyst from OIG’s NCFD participates full time
     at the FBI’s Heart of America Regional Computer Forensic
     Lab (HARCFL) in Kansas City, Missouri. Participation in
     HARCFL has been beneficial in obtaining direct access to a
     Regional Computer Forensics Laboratory, training, sample
     policies and procedures, and, as needed, FBI assistance in
     OIG’s forensic examinations.


Testimony Delivered

n	   IG Testifies Before the House Committee on Appropriations’
     Subcommittee on Agriculture, Rural Development, FDA, and
     Related Agencies, on OIG’s FY 2009 Budget Request. On
     February 28, 2008, the IG and her senior management team
     presented testimony in support of the President’s FY 2009
     Budget Request for OIG. Her testimony provided an overview
     of significant audit and investigative work OIG conducted
     in the preceding 12 months and the most noteworthy work
     OIG has ongoing or planned for 2008. The IG’s testimony
     featured descriptions of OIG’s food safety work in 2007 and
     2008, covering issues such as risk-based inspection, E. coli
     testing, allegations of improper practices in meat processing
     facilities, and USDA recall procedures. OIG’s testimony
     also addressed audit and investigation work pertaining to
     NRCS conservation programs, RD activities, and USDA’s
     nutrition programs. During the hearing, the IG and her senior
     managers further discussed OIG’s work related to hurricane
     relief operations, dogfighting investigations, and food stamp
     fraud with Members of the Subcommittee. IG Fong also
     testified about the current budget reductions we face and the
     impact on our ability to provide full and effective oversight of
     Departmental operations.




                                                                        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half   21
                                                                Goal 3




     ONGOING AND PLANNED REVIEWS FOR GOAL 3

     Topics that will be covered in ongoing or planned reviews under Goal 3 include:

     n	      GIPSA’s management and oversight of the Packers and Stockyards Program,
     n	      FS acquisition of IT software/hardware,
     n	      oversight and control of FS activities,
     n	      implementation of Renewable Energy Programs in USDA, ARS, RBS, and FS,
     n	      Hurricane Relief Initiatives:
             	 Section 32 disaster programs including the Feed, Hurricane (crop), and
                  Livestock Indemnity Programs (FSA and CCC),
             	 RMA’s 2005 emergency hurricane relief efforts in Florida,
     n	      RMA compliance activities,
     n	      national research initiative competitive grants (CSREES),
     n	      ARS research monitoring,
     n	      Export Guarantee Programs (FAS),
     n	      price discovery efforts for various crops reported nationwide (NASS),
     n	      establishment of average yields (NASS),
     n	      annual audits of the Department and standalone agencies’ Financial Statements for FYs 2007 and 2008 (OCFO),
     n	      retirement, health, and life insurance withholdings/contribution and supplemental
             headcount report submitted to OPM for FYs 2007 and 2008 (OCFO),
     n	      FY 2008 USDA closing package,
     n	      Rural Telephone Bank (RTB) closeout audit,
     n	      accounting for farm loan programs (FSA),
     n	      improper payments – continued reviews of risk assessment process and
             monitoring the progress of corrective actions (FSA and RHS),
     n	      adequacy of internal controls over USDA travel card expenditures followup,
     n	      management and security over USDA wireless communications (Office of the Chief Information Officer (OCIO)),
     n	      lost and stolen computer equipment containing sensitive information (OCIO),
     n	      FY 2008 National Finance general controls (OCFO),
     n	      FY 2008 FISMA (OCIO),
     n	      FY 2008 National Information Technology Center general controls (OCIO),
     n	      FY 2008 Information Technology Services general controls (OCIO),
     n	      FSIS IT followup,
     n	      minimum security requirements in USDA information systems (OCIO), and
     n	      management over time and attendance data processed at the National Finance Center (OCFO).

     The findings and recommendations from these efforts will be covered in future semiannual reports as the relevant
     audits, inspections, and investigations are completed.




22        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half
                                                                    Goal 4




Stewardship Over Natural Resources
OIG Strategic Goal 4:                                                        EXAMPLES OF AUDIT, INSPECTION, AND
                                                                             INVESTIGATIVE WORK FOR GOAL 4
Increase the efficiency and effectiveness with
which USDA manages and exercises stewardship                                 NRCS Should Evaluate Funding Decisions for Multi-
over natural resources.                                                      State Disaster Areas

OIG’s audits, inspections, and investigations focus on USDA’s                Overall, we found that NRCS’ management controls in
management and stewardship of natural resources, including                   Mississippi and Louisiana were in place and functioning, as
soil, water, and recreational settings. Our work in this area is             intended, to identify eligible sponsor entities and watershed
vital because USDA is entrusted with hundreds of billions of                 project areas, to solicit bids and award contracts, and to inspect
dollars in fixed public assets, such as the 193 million acres of             and verify the completion of designed channel restorations and
national forests and grasslands. USDA also provides scientific               levee repairs after Hurricanes Katrina and Rita. NRCS had
and technical knowledge for enhancing and protecting the                     provided funding for the affected States to restore channels and
economic productivity and environmental quality of the                       levees and to remove and dispose of dead poultry.
estimated 1.5 billion acres of forests and associated rangelands
                                                                             NRCS initially allocated $23.9  million in Emergency
in the United States.
                                                                             Watershed Protection Program  (EWP) funds to the affected
In the first half of FY 2008, we devoted 5.5 percent of our                  areas. Initial EWP funding for Louisiana and Mississippi totaled
total direct resources to Goal 4, with 99.5 percent of these                 approximately $10.5  million and $7.5  million, respectively,
resources assigned to critical/high-impact work. There were                  for exigent projects in Louisiana and serious, but nonexigent,
no audit or inspection recommendations under the new                         projects in Mississippi. Each State obligated funding to its
Goal 4 that resulted in management decision within 1 year, nor               highest priority projects, but the initial EWP funding was
were there any investigative cases that had criminal, civil, or              not obligated to the highest priority projects across the entire
administrative action taken. OIG issued no audit reports under               disaster-impacted area. We recommended that NRCS evaluate
Goal 4 during this reporting period. (For statistical purposes,              the use of program funding for future disasters across any
the audit reported below (Audit Report No.  50601-12-KC)                     multi-State disaster areas to ensure that available funding can
is tabulated under Goal 3 because it was largely completed                   be put to the highest priority or best use. NRCS indicated that
before the implementation of Goal 4 in our strategic plan. The               it will assess the funding, but that funding had been sufficient
following investigative results are indicative of cases initiated            to fully fund all exigent requests.
before the implementation of Goal 4.) OIG investigations
                                                                             The audit was conducted in conjunction with PCIE as part of
under Goal 4 yielded three indictments, five convictions, and
                                                                             its examination of the Federal Government’s relief efforts in
about $1.3  million in monetary results during the reporting
                                                                             the aftermath of Hurricanes Katrina and Rita. (Audit Report
period.
                                                                             No.  50601-12-KC, Hurricane Relief Initiatives: EWP and
                                                                             Disposal of Dead Animals)
    Management Challenges Addressed
    Under Goal 4

    n	     Interagency Communications, Coordination,
           and Program Integration Need Improvement
           (also under Goals 1, 2, and 3)

    n	     Better FS Management and Community
           Action Needed To Improve the Health of
           the National Forests and Reduce the Cost of
           Fighting Fires (also under Goals 1 and 3)




                                                                       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half             23
                                                                   Goal 4




     GOVERNMENTWIDE ACTIVITIES – GOAL 4                                     ONGOING AND PLANNED REVIEWS FOR GOAL 4

                                                                            Topics that will be covered in ongoing or planned
     Testimony Delivered                                                    reviews under Goal 4 include:
     n	      Deputy Inspector General (DIG) Kathleen S.
             Tighe Testifies Before the House Committee                     n	    Invasive Species Program (FS),
             on Appropriations’ Subcommittee on Interior,                   n	    watershed management (FS),
             Environment, and Related Agencies, Regarding                   n	    Legacy Program – appraisal process (FS),
             Wildfire. On February 12, 2008, DIG Tighe                      n	    administration of special use permits (FS),
             presented testimony on FS wildfire management                  n	    controls over technical service providers (NRCS),
             activities. She described the scope of OIG’s work              n	    Conservation Security Program (NRCS),
             related to FS and OIG’s three most recent FS                   n	    effectiveness of status reviews process
             audits. The DIG testified that during the last                       in assessing producer compliance with
             4 fiscal years, OIG’s audit and investigative work                   conservation provisions (multi-agency), and
             related to FS achieved monetary benefits or results            n	    Wetlands Reserve Program –
             totaling more than $63 million. In addition to                       restoration compliance (NRCS).
             discussing OIG’s Large-Fire Suppression Costs
             and Healthy Forests Initiative audits, the DIG                 The findings and recommendations from these
             highlighted OIG’s newly issued report on FS’ Air               efforts will be covered in future semiannual reports
             Safety Program. Deputy IG Tighe advised the                    as the relevant audits, inspections, and investigations
             Subcommittee that OIG’s overall conclusion was                 are completed.
             that FS has made strides toward improving its
             air safety program, but that OIG believes FS still
             needs to develop and implement an airworthiness
             assessment, inspection, and maintenance program
             that is targeted toward the demands that a
             firefighting environment imposes on aircraft.
             Regarding the cost of large-fire suppression, the
             DIG’s testimony reiterated OIG’s finding that
             the financial burdens on FS are likely to continue
             to rise because of current public expectations
             and uncertainties about Federal, State, and local
             responsibilities. The DIG also noted some of
             OIG’s ongoing and planned work for FY 2008
             regarding FS activities.




24        USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half
                                                           Impact of the OIG




Gauging the Impact of OIG
MEASURING PROGRESS AGAINST THE OIG                                     For audits we show				
STRATEGIC PLAN
                                                                       n	      reports issued
The first way we gauged our impact was by measuring the                n	      management decisions made (number of
extent to which our work focused on the key issues under our                   reports and recommendations)
newly revised goals that became effective in FY 2008:
                                                                       n	      total dollar impact of management-decided reports
                                                                               (questioned costs and funds to be put to better use)
   1. Strengthen USDA’s ability to implement safety and
      security measures to protect the public health as                n	      program improvement recommendations
      well as agricultural and Departmental resources.
                                                                       n	      audits without management decision
   2. Reduce program vulnerabilities and
      strengthen program integrity in the delivery
                                                                       For investigations we show				
      of benefits to program participants.

   3. Support USDA in implementing its                                 n	      indictments
      management improvement initiatives.
                                                                       n	      convictions
   4. Increase the efficiency and effectiveness
      with which USDA manages and exercises                            n	      arrests
      stewardship over natural resources.                              n	      total dollar impact (recoveries, restitutions, fines)

IMPACT OF OIG AUDIT AND INVESTIGATIVE WORK ON                          n	      administrative sanctions
DEPARTMENT PROGRAMS                                                    n	      OIG Hotline complaints
A second way we gauge our impact is by tracking the outcomes
of our audits and investigations. Many of these measures are
codified in the Inspector General Act of 1978, as amended.
The following pages present a statistical overview of the OIG’s
accomplishments this period.




                             PERFORMANCE RESULTS TOTALS UNDER OUR STRATEGIC GOALS
                                                                                                                                  FY 08
                                                                                           FY 07             FY 08
                            Performance Measures                                                                                 1st half
                                                                                          Baseline           Target
                                                                                                                                 Actual
 (1) O
      IG direct resources dedicated to critical-risk and high-impact work.                     92.8%              90.0%               95.6%
 (2) Audit or inspection recommendations resulting in management decision
                                                                                                84.0%              85.0%               74.2%
      within 1 year of report issuance.
 (3) C
      losed investigations previously referred for action that resulted in an
     indictment, conviction, civil suit or settlement, judgment, administrative                 73.7%              65.0%               76.6%
     action, or monetary result




                                                                    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half                 25
                                                                    Impact of the OIG




                                                       SUMMARY OF AUDIT ACTIVITIES
                                                          OCTOBER 2007 – MARCH 2008

    Reports Issued	                                                                                                                           30
Audits Performed by OIG                                                                                                                       22
Evaluations Performed by OIG                                                                                                                   0
Audits Performed Under the Single Audit Act                                                                                                    0
Audits Performed by Others                                                                                                                     8
Management Decisions Made
Number of Reports                                                                                                                             22
Number of Recommendations                                                                                                                     180
Total Dollar Impact (Millions) of Management-Decided Reports                                                                               $363.8
Questioned/Unsupported Costs                                                                                                                $30.6ab
Recommended for Recovery                                                                                                                    $30.6
Not Recommended for Recovery                                                                                                                  $0
Funds To Be Put to Better Use                                                                                                               $333.2

These were the amounts the auditees agreed to at the time of management decision.
a
b
 The recoveries realized could change as the auditees implement the agreed‑upon corrective action plan and seek recovery of amounts recorded as debts
due the Department.



                                                 SUMMARY OF INVESTIGATIVE ACTIVITIES
                                                          OCTOBER 2007 – MARCH 2008

    Reports Issued	                                                                                                                           146
Cases Opened                                                                                                                                  161
Cases Closed                                                                                                                                  137
Cases Referred for Prosecution                                                                                                                150
Impact of Investigations
Indictments                                                                                                                                   125
Convictions                                                                                                                                  374a
Searches                                                                                                                                      28
Arrests                                                                                                                                       182
Total Dollar Impact (Millions)                                                                                                              $34.7
Recoveries/Collections                                                                                                                       $6.8b
Restitutions                                                                                                                                $18.9c
Fines                                                                                                                                       $ 0.9d
Claims Established                                                                                                                          $ 7.6e
Cost Avoidance                                                                                                                               $ 0.4f
Administrative Penalties                                                                                                                    $ 0.1g
Administrative Sanctions                                                                                                                      54
Employees                                                                                                                                     15
Businesses/Persons                                                                                                                            39
a
  Includes convictions and pretrial diversions. Also, the period of time to obtain court action on an indictment varies widely;
  therefore, the 374 convictions do not necessarily relate to the 125 indictments.
b
  Includes money received by USDA or other Government agencies as a result of OIG investigations.
c
  Restitutions are court-ordered repayments of money lost through a crime or program abuse.
d
  Fines are court-ordered penalties.
e
  Claims established are agency demands for repayment of USDA benefits.
f
  Consists of loans or benefits not granted as the result of an OIG investigation.
g
  Includes monetary fines or penalties authorized by law and imposed through an administrative process as a result of OIG findings.


26       USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half
                                                           Impact of the OIG




                                            INVENTORY OF AUDIT REPORTS
                                WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                           FROM OCTOBER 1, 2007, THROUGH MARCH 31, 2008

                                                                                                  NUMBER             DOLLAR VALUE
                       FOR WHICH NO MANAGEMENT DECISION HAD
         A.                                                                                           6              $311,319,480
                       BEEN MADE BY OCTOBER 1, 2007
                       WHICH WERE ISSUED DURING THE REPORTING
         B.                                                                                           1                $25,000,000
                       PERIOD
                       TOTALS                                                                         7              $336,319,480
                       FOR WHICH A MANAGEMENT DECISION WAS
        C.                                                                                            3
                       MADE DURING THE REPORTING PERIOD
                       (1) DOLLAR VALUE OF DISALLOWED COSTS                                                          $333,203,479
                       (2) DOLLAR VALUE OF COSTS NOT DISALLOWED                                                                     $0
                       FOR WHICH NO MANAGEMENT DECISION HAS
        D.             BEEN MADE BY THE END OF THE REPORTING                                          4                 $3,116,001
                       PERIOD
                       REPORTS FOR WHICH NO MANAGEMENT
                       DECISION WAS MADE WITHIN 6 MONTHS OF                                           4                 $3,116,001
                       ISSUANCE


                                                   INVENTORY OF AUDIT REPORTS
                                                 WITH QUESTIONED COSTS AND LOANS
                                          FROM OCTOBER 1, 2007, THROUGH MARCH 31, 2008

                                                                                                    DOLLAR VALLUE

                                                                                                    QUESTIONED       UNSUPPORTEDa
                                                                                       NUMBER        COSTS AND         COSTS AND
                                                                                                       LOANS             LOANS

                       FOR WHICH NO MANAGEMENT DECISION HAD
         A.                                                                              13         $43,249,467            $58,659
                       BEEN MADE BY OCTOBER 1, 2007
                       WHICH WERE ISSUED DURING THIS REPORTING
         B.                                                                               2               $795,655        $545,230
                       PERIOD
                       TOTALS                                                            15         $44,045,122           $603,889
                       FOR WHICH A MANAGEMENT DECISION WAS
        C.                                                                                8
                       MADE DURING THIS REPORTING PERIOD
                       (1) DOLLAR VALUE OF DISALLOWED COSTS
                       RECOMMENDED FOR RECOVERY                                                     $30,572,705            $34,770
                       NOT RECOMMENDED FOR RECOVERY                                                        $39,422              $0
                       (2) DOLLAR VALUE OF COSTS NOT DISALLOWED                                     $12,157,743                 $0
                       FOR WHICH NO MANAGEMENT DECISION HAS
        D.             BEEN MADE BY THE END OF THIS REPORTING                             7           $2,987,251          $569,119
                       PERIOD
                       REPORTS FOR WHICH NO MANAGEMENT
                       DECISION WAS MADE WITHIN 6 MONTHS OF                               5           $2,191,596           $23,889
                       ISSUANCE
Unsupported values are included in questioned values.
a




                                                                    USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half         27
                                                                 Impact of the OIG




Program Improvement Recommendations                                          n	      FSA agreed to ensure that the guidance for conducting
                                                                                     improper payment reviews was revised to reflect the revision
A significant number of our audit recommendations carry no                           to the improper payment determination for Marketing
                                                                                     Assistance Loans lien searches, and that controls are
monetary value per se, but their impact can be immeasurable
                                                                                     implemented to confirm that improper payment estimates
in terms of safety, security, and public health. They can also
                                                                                     are accurately based on the results of payment reviews.
contribute considerably toward economy, efficiency, and
effectiveness in USDA’s programs and operations. During
this reporting period, we issued 159 program improvement
recommendations, and management agreed to implement
a total of 143  program improvement recommendations that
were issued this period or earlier. Examples of the program
improvement recommendations issued this period (see the
main text of this report for a summary of the audits that
prompted these program improvement recommendations)
include the following:


n	    OIG made 35  recommendations to improve FSIS’
      management controls, data collection and analyses
      processes, and IT infrastructure. FSIS agreed with all of
      these recommendations and has already begun to take
      responsive action.

n	    APHIS generally agreed with our recommendations to
      enhance the controls over the importation of live animals
      and responded with plans or actions to strengthen or
      implement additional animal import controls.

n	    APHIS agreed to develop timeframes to implement its
      ePermits system for importation of animal products,
      incorporating the ability to identify permit applicants who
      require inspections and to track permit activity at the ports
      of entry.

n	    FS agreed to develop an overall plan to complete
      airworthiness assessments for its firefighting aircraft and to
      require States to assess the airworthiness of aircraft borrowed
      from FS and used on Federal fires.

n	    NASS has implemented changes in its internal controls to
      improve the data collection and review process for the Dairy
      Products Prices report.

n	    RUS agreed to develop a formal strategy to maximize the
      effectiveness of renewable energy projects, including the
      development of goals and performance measures as well
      as the use of grant and loan combinations to maximize
      available loan and grant funds.




28     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half
                                                             Impact of the OIG




                                            SUMMARY OF AUDIT REPORTS RELEASED
                                        FROM OCTOBER 1, 2007, THROUGH MARCH 31, 2008
                             DURING THE 6-MONTH PERIOD FROM OCTOBER 1, 2007, THROUGH MARCH 31, 2008,
                    THE OFFICE OF INSPECTOR GENERAL ISSUED 30 AUDIT REPORTS, INCLUDING 8 PERFORMED BY OTHERS.
                                       THE FOLLOWING IS A SUMMARY OF THOSE AUDITS BY AGENCY:


                                                                         AUDITS       QUESTIONED     UNSUPPORTEDa     FUNDS BE PUT
AGENCY                                                                                 COSTS AND       COSTS AND
                                                                        RELEASED                                      TO BETTER USE
                                                                                         LOANS           LOANS

AGRICULTURAL RESEARCH SERVICE                                                1
ANIMAL AND PLANT HEALTH INSPECTION SERVICE                                   2
COMMODITY CREDIT CORPORATION                                                 1
FARM SERVICE AGENCY                                                          5         $545,230        $545,230       $25,000,000
FOOD AND NUTRITION SERVICE                                                   6         $250,425
FOOD SAFETY AND INSPECTION SERVICE                                           2
FOREST SERVICE                                                               4
MULTIAGENCY                                                                  4
RISK MANAGEMENT AGENCY                                                       2
RURAL DEVELOPMENT                                                            1
RURAL HOUSING SERVICE                                                        1
RURAL UTILITIES SERVICE                                                      1
TOTALS                                                                      30         $795,655        $545,230       $25,000,000
TOTAL COMPLETED:
     SINGLE AGENCY AUDIT                                                    26
     MULTIAGENCY AUDIT                                                       4
     SINGLE AGENCY EVALUATION                                                0
     MULTIAGENCY EVALUATION                                                  0
TOTAL RELEASED NATIONWIDE                                                   30
TOTAL COMPLETED UNDER CONTRACT                           b
                                                                             8
TOTAL SINGLE AUDIT ISSUEDc                                                   0
a
  Unsupported values are included in questioned values
b
  Indicates audits performed by others
c
  Indicates audits completed as Single Audit




                                                                      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half   29
                                                           Impact of the OIG




                            AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                       FROM OCTOBER 1, 2007, THROUGH MARCH 31, 2008

                                                                                   QUESTIONED   UNSUPPORTEDa     FUNDS BE
                         RELEASE                                                    COSTS AND     COSTS AND       PUT TO
     AUDIT NUMBER         DATE                        TITLE                           LOANS         LOANS       BETTER USE


Agricultural Research Service
                                         DCAA Audit of International
                                         Science and Technology Center
                                         and Science and Technology
                                         Center of Ukraine’s Internal
 020170007HQ          2007/11/15         Controls Funded by ARS
Total: Agricultural Research Service                                           1


Animal and Plant Health Inspection Service
                                     Controls Over Permits To
 336010009CH           2007/10/26    Import Agricultural Products
                                     Continued Monitoring of Avian
 337010001HY         2008/01/15      Flu Preparations
Total: Animal and Plant Health Inspection Service                              2


Commodity Credit Corporation
                                   FY 2007 CCC Financial
 064010022FM       2007/11/13      Statements
Total: Commodity Credit Corporation                                            1


Farm Service Agency
                                        Hurricane Relief Initiative - Tree
                                                                                   $545,230      $545,230
 036010013AT           2008/03/10       Indemnity Program
                                        Identification and Reporting
                                        of Improper Payments in FSA
 036010016CH           2008/03/27       High-Risk Programs
 036010025KC           2008/01/18       Bioenergy Program
                                        FSA’s Hurricane Relief
                                        Initiatives: Emergency
 036010027KC           2008/02/26       Conservation Program
                                        2005 Hurricane Initiatives:
                                                                                                               $25,000,000
 036010048TE         2007/10/18         Aquaculture Grants to States
Total: Farm Service Agency                                                     5   $545,230      $545,230      $25,000,000




30      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half
                                                       Impact of the OIG




                            AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                     FROM OCTOBER 1, 2007, THROUGH MARCH 31, 2008

                                                                                  QUESTIONED    UNSUPPORTEDa    FUNDS BE PUT
                         RELEASE                                                   COSTS AND      COSTS AND       TO BETTER
  AUDIT NUMBER            DATE                     TITLE                             LOANS          LOANS            USE
Food and Nutrition Service
                                      DCAA Audit of Mathematica
                                      Policy Research, Inc., FY 2005
270170004HQ             2007/11/06    Incurred Cost
                                      DCAA Audit of ABT Associates,
270170005HQ             2008/01/31    Inc., FY 2003 Incurred Cost
                                      Georgia Summer Food Service
                                                                                   $250,425
270990063AT             2008/03/31    Program
                                      FY 2007 FNS Financial
274010032HY             2007/11/09    Statements
                                      Application Control Review
                                      of the Store Tracking and
275010002HY             2008/03/31    Redemption System II
                                      Food Stamp Employment and
276010016AT         2008/03/31        Training Program
Total: Food and Nutrition Service                                           6      $250,425


Food Safety and Inspection Service
                                      FSIS Sampling and Testing
246010004KC             2008/01/29    Procedures for E. coli O157:H7
                                      Issues Impacting Development
                                      of Risk-Based Inspection at
246010007HY             2007/12/04    Processing Establishments
Total: Food Safety and Inspection Service                                   2


Forest Service
                                      DCAA Audit of Air Resource
                                      Specialist Inc., Accounting
080170013HQ             2007/10/31    System
                                      DCAA Audit of Kellogg Brown
                                      and Root Services, Inc., Brown
                                      and Root Services Operations’
080170014HQ             2007/11/27    FY 2002 Incurred Costs
                                      FY 2007 Forest Service Financial
084010008FM             2007/11/15    Statements
086010048SF             2008/02/05    FS Air Safety Program
Total: Forest Service                                                       4




                                                                USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half   31
                                                         Impact of the OIG




                             AUDIT REPORTS RELEASED AND ASSOCIATED MONETARY VALUES
                                     FROM OCTOBER 1, 2007, THROUGH MARCH 31, 2008

                                                                                  QUESTIONED   UNSUPPORTEDa   FUNDS BE PUT
                          RELEASE                                                  COSTS AND     COSTS AND      TO BETTER
     AUDIT NUMBER          DATE                     TITLE                            LOANS         LOANS           USE
Multi-Agency
                                       FY 2007 USDA Financial
 504010062FM           2007/11/15      Statements
                                       FY 2007 Audit of USDA’s
 504010063FM           2007/11/16      Closing Package
                                       USDA’s Controls Over the
                                       Importation and Movement of
 506010012CH           2008/03/31      Live Animals
                                       Hurricane Relief Initiatives:
                                       NRCS Emergency Watershed
                                       Protection Program and Dead
 506010012KC           2007/10/18      Animal Debris Disposal Project
Total: Multi-Agency                                                          4


Risk Management Agency
                                       Monitoring the Financial
                                       Condition of RMA’s Reinsured
 050990111KC           2007/10/23      Companies
                                        FY 2007 FCIC Financial
 054010016FM           2007/11/09      Statements
Total: Risk Management Agency                                                2


Rural Development
                                       FY 2007 Rural Development
 854010014FM           2007/11/09      Financial Statements
Total: Rural Development                                                     1


Rural Housing Service
                                       Review of Bond Financing –
 040990106SF           2008/03/18      RHS Guaranteed Loan Program
Total: Rural Housing Service                                                 1


Rural Utilities Service
                                       Implementation of Renewable
                                       Energy Programs in the Rural
 096010007TE           2008/03/21      Utilities Service
Total: Rural Utilities Service                                               1
GRAND TOTAL                                                                  30    $795,655      $545,230     $25,000,000




32      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half
                                                                   Impact of the OIG




                                               AUDITS WITHOUT MANAGEMENT DECISION
The Inspector General Act has a number of reporting requirements, among them tracking audits without management decision. The following audits
did not have management decisions made within the 6-month limit imposed by Congress. Narratives for new entries follow this table. An asterisk (*)
indicates that an audit is pending judicial, legal, or investigative proceedings that must be completed before the agency can act to complete management
decisions.

                                                                                                                                          Amount With
                                                                                                                       Total Value at       No Mgmt.
                                                                                                                         Issuance            Decision
Agency                    Date Issued                                  Title of Report                                  (in dollars)       (in dollars)


NEW SINCE LAST REPORTING PERIOD
                                             1. Review of USDA Employee Civil Rights Complaints
                                                                                                                                     0                 0
OAC                      2007/05/14          (60601-4-Hy)
                                             2. CSREES – Tribal 1994 Land Grant Institutions
                                                                                                                            951,345            951,345
CSREES                   2007/08/17          (13011-3-At)
                                             3. Tobacco Transition Payment Program – Quota
                                             Holder Payments and Flue-Cured Tobacco Quotas                                  465,703             29,820
FSA                      2007/09/26          (03601-12-At)
                                             4. Crop Bases on Lands With Conservation Easements
                                                                                                                          1,385,937         1,385,937
Multiagency              2007/08/27          (50099-11-SF)




                                                                             USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half                  33
                                                                    Impact of the OIG




                                            PREVIOUSLY REPORTED BUT NOT YET RESOLVED
 These audits are still pending agency action or are under judicial, legal, or investigative proceedings. Details on the recommendations where management
 decisions had not been reached have been reported in previous Semiannual Reports to Congress. Agencies have been informed of actions that must be
 taken to reach management decision, but for various reasons the actions have not been completed. The appropriate Under and Assistant Secretaries have
 been notified of those audits without management decisions.

                                                                                                                                           Amount With
                                                                                                                        Total Value at       No Mgmt.
                                                                                                                          Issuance            Decision
 Agency                    Date Issued                                   Title of Report                                 (in dollars)       (in dollars)
                                              5. Trade Promotion Operations
                                                                                                                                      0                 0
 FAS                      2007/02/22          (07601-1-Hy)
                                              6. Implementation of the Hazard Analysis and Critical
                                                                                                                                      0                 0
 FSIS                     2000/06/21          Control Point (HACCP) System (24001-3-At)
                                              7. Oversight of Production Process and Recall at
                                                                                                                                      0                 0
                          2003/09/30          ConAgra Plant (Establishment 969) (24601-2-KC)
                                              8. HACCP – Compliance by Very Small Plants
                                                                                                                                      0                 0
                          2005/06/24          (24601-5-At)
                                              9. Implementation of Agricultural Risk Protection Act
                                                                                                                                      0                 0
 Multiagency              2003/09/30          (50099-12-KC)
                                              10. Homeland Security Issues for USDA Grain and
                                                                                                                                      0                 0
                          2004/02/23          Commodities Inventory (50099-13-KC)
                                              11. IT – Lost or Stolen Items Containing Sensitive
                                                                                                                                      0                 0
                          2007/02/27          Information (50501-8-FM)
                                              12. Implementation of Trade Title of 2002 Farm Bill
                                                                                                                                      0                 0
                          2007/03/28          and President’s Management Agenda (50601-12-At)
                                              13. Lender Servicing of Business and Industry (B&I)
                                                                                                                           1,536,060          1,536,060
 RBS                      2002/01/28          Guaranteed Loans, Florida (34601-3-At)
                                              14. Rural Rental Housing Project Costs, Cairo, IL
                                                                                                                              164,000           164,000
                          2004/09/30          (04099-143-Ch)*
                                              15. Controls Over Single-Family Hurricane Relief
                                                                                                                              388,842           320,152
                          2007/03/30          Efforts (04601-15-Ch)
                                              16. Monitoring of RMA’s Implementation of Manual 14
                                              Reviews/Quality Control Review System                                                   0                 0
 RMA                      2002/03/15          (05099-14-KC)
                                              17. Evaluation of RMA Indemnity Payments for 2004
                                                                                                                              415,710           415,710
                          2007/03/26          Florida Hurricanes (05099-27-At)




34      USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half
                                                                Impact of the OIG




AUDITS WITHOUT MANAGEMENT DECISION –                                        support that such amounts have been entered as receivables on the
NARRATIVE FOR NEW ENTRIES                                                   agency’s accounting records.


1. Review of USDA Employee Civil Rights Complaints                          4. Crop Bases on Lands With Conservation
(60601-4-Hy), Issued May 14, 2007                                           Easements (50099-11-SF), Issued August 27, 2007
                                                                            Our followup audit found a continuing problem with NRCS not
OIG recommended that the Office of Adjudication and Compli-
                                                                            communicating with FSA on easements, causing FSA to make
ance (OAC) implement controls to monitor the processing of em-
                                                                            improper farm subsidy payments for 36 easements, resulting in
ployee complaints and to intervene when timeframes are not met.
                                                                            overpayments of $1.3 million. We issued a management alert in
For management decision, OAC needed to establish timeframes
                                                                            September 2005. We have accepted management decision for
by which cases are considered to significantly exceed regulatory
                                                                            our one recommendation to NRCS that it train staff members
timeframes. OAC proposed that 180 days elapse before a Final
                                                                            in California on their responsibilities to notify FSA of recorded
Agency Decision (FAD) based on the merits will be considered
                                                                            easements. We recommended that FSA (1) direct its California
as having significantly exceeded regulatory timeframes. However,
                                                                            office to remove the crop bases from the 36 easements and
regulations state that an FAD based on merits should be issued
                                                                            recover the consequent improper payments, (2) search for similar
within 60 days of the beginning of the adjudication period. To
                                                                            problems nationwide, and (3) take action to prevent these
accept management decision, OAC needs to provide justification
                                                                            problems from recurring. To reach management decision on the
for its proposal.
                                                                            seven of nine open recommendations, FSA needs to (1) provide
                                                                            support that any overpayments have been entered as receivables on
2. CSREES – 1994 Tribal Land Grant Institutions                             its accounting records or justification for not pursuing any of the
(13011-3-At), Issued August 17, 2007                                        monetary amounts, (2) demonstrate its efforts to search for similar
                                                                            problems nationwide, and (3) document that it has removed from
OIG found that CSREES had not closed out 33 grants with
                                                                            its handbook the reference that cropland enrolled in an EWP
unliquidated balances totaling $874,986. We recommended that
                                                                            easement is eligible for farm subsidy payments in the fiscal year
CSREES close out the expired grants and return excess funds to
                                                                            the easement is filed.
the U.S. Treasury. CSREES generally agreed and has started the
process to return the excess funds to the U.S. Treasury, except in
several cases where it is seeking clarification on an administrative
requirement. To reach management decision, CSREES needs to
provide documentation on its corrective actions on all of these
expired grants.

3. Tobacco Transition Payment Program – Quota
Holder Payments and Flue-Cured Tobacco Quotas
(03601-12-At), Issued September 26, 2007
OIG found that, in 2003, FSA identified a computer software
error that incorrectly altered flue-cured tobacco quotas in cases
where an owner transferred quota from one tract to another
(common ownership transfers). Although FSA corrected the
software problem, it did not review and correct all common
ownership transfers made before the software was revised. FSA
agreed to review and correct quotas and Tobacco Transition
Payment Program (TTPP) contracts and payments for identified
common ownership transfers that resulted in incorrectly altered
flue-cured tobacco quotas. To reach management decision, FSA
needs to provide the results of its reviews, including copies of the
bills for collection of any amounts owed to the Government, and




                                                                         USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half           35
                                                              Impact of the OIG




INDICTMENTS AND CONVICTIONS

From October 1, 2007, through March 31, 2008, OIG completed
146 investigations. We referred 150 cases to Federal, State, and
local prosecutors for their decision.
During the reporting period, our investigations led to
125 indictments and 374 convictions. The period of time to
obtain court action on an indictment varies widely; therefore, the
374 convictions do not necessarily relate to the 125 indictments.
Fines, recoveries/collections, restitutions, claims established,
cost avoidance, and administrative penalties resulting from our
investigations totaled about $34.7 million.
The following is a breakdown, by agency, of indictments and
convictions for the reporting period.




                                                    Indictments and Convictions
                                                   October 1, 2007 – March 31, 2008

                     Agency                                    Indictments            Convictions*

                      AMS                                            1                     0

                    APHIS                                            10                  271

                      ARS                                            1                     0

                      FNS                                            77                   67

                       FS                                            2                     3

                      FSA                                            11                   21

                      FSIS                                           12                    6

                     NRCS                                            1                     2

                      RHS                                            4                     3

                     RMA                                             6                     1

                     TOTAL                                           125                  374

 *This category includes pretrial diversions.




36     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half
                                                            Impact of the OIG




OFFICE OF INSPECTOR GENERAL HOTLINE
The OIG Hotline serves as a national receiving point for reports        participant fraud, employee misconduct, and mismanagement,
from both employees and the general public of suspected                 as well as opinions about USDA programs. Figure 1 displays
incidents of fraud, waste, mismanagement, and abuse in USDA             the volume and type of the complaints we received, and figure
programs and operations. During this reporting period, the OIG          2 displays the disposition of those complaints.
Hotline received 718 complaints, which included allegations of



   Figure 1. Volume and Type

          Bribery (2)

          Health/Safety (27)

                                                                                                  Participant Fraud (395)




          Waste/Management (142)




          Employee Misconduct (114)
                                                                                                 Opinion/Information (38)




   Figure 2. Disposition of Complaints Received


                                                                                              Referred to USDA or Other Agencies
        Referred to USDA Agencies for Response (336)                                          for Information - No Response
                                                                                              Needed (96)



                                                                                              Referred to OIG Audit or
                                                                                              Investigations for Review (48)

                                                                                              Filled Without Referral -
                                                                                              Insufficient Information (20)


       Referred to FNS for Tracking (215)                                                     Referred to State Agency (2)

                                                                                              Referred to Other Law
                                                                                              Enforcement Agencies (1)




                                                                     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half       37
                                                                  Impact of the OIG




                          FREEDOM OF INFORMATION ACT (FOIA) AND PRIVACY ACT (PA) REQUESTS
                                                       October 1, 2007 – March 31, 2008

 Number of FOIA/PA Requests Received                                                                                                        74

 Number of FOIA/PA Requests Processed                                                                                                       70

  Number Granted                                                                                                                            6

  Number Partially Granted                                                                                                                  39

  Number Not Granted                                                                                                                        25

 Reasons for Denial

  No Records Available                                                                                                                      13

  Referred to Other Agencies                                                                                                                1

  Requests Denied in Full Exemption 5                                                                                                       1

  Requests Denied in Full Exemption 7(A)                                                                                                    5

  Requests Denied in Full Exemption 7(C)                                                                                                    2

  Request Withdrawn                                                                                                                         1

  Fee-Related                                                                                                                               1

  Not a Proper FOIA Request	                                                                                                                0

  Not an Agency Record                                                                                                                      0

  Duplicate Request                                                                                                                         0

  Other                                                                                                                                     1

 Requests for OIG Reports From Congress and Other Government Agencies

  Received                                                                                                                                  20

  Processed                                                                                                                                 20

 Appeals Received                                                                                                                           2

 Appeals Processed                                                                                                                          3

  Appeals Completely Upheld                                                                                                                 2

  Appeals Partially Upheld                                                                                                                  1

  Appeals Completely Reversed                                                                                                               0

  Appeals Requests Withdrawn                                                                                                                0

  Other                                                                                                                                     0

 Number of OIG Reports/Documents Released in Response to Requests                                                                           33
 NOTE 1: A request may involve more than one report.
 NOTE 2: During this 6-month period, 28 audit reports and 3 inspections and research reports were posted to the Internet at the OIG Web site:
 http://www.usda.gov/oig




38     USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half
                      Abbreviations




         Abbreviations of Organizations
 AMS     Agricultural Marketing Service
APHIS    Animal and Plant Health Inspection Service
  ARS    Agricultural Research Service
 BRSB    Benefit Redemption Systems Branch
  CBP    U.S. Customs and Border Protection
 CCC     Commodity Credit Corporation
CSREES   Cooperative State Research, Education, and Extension Service
 DCAA    Defense Contract Audit Agency
 DHS     U.S. Department of Homeland Security
 DOJ     U.S. Department of Justice
  FAA    Federal Aviation Administration
  FAS    Foreign Agricultural Service
  FBI    Federal Bureau of Investigation
 FCIC    Federal Crop Insurance Corporation
 FDA     Food and Drug Administration
  FNS    Food and Nutrition Service
   FS    Forest Service
  FSA    Farm Service Agency
 FSAN    Financial Statement Audit Network
  FSIS   Food Safety and Inspection Service
  GAO    Government Accountability Office
 GIPSA   Grain Inspection, Packers and Stockyards Administration
HARCFL   Heart of America Regional Computer Forensic Lab
  HSC    Homeland Security Council
HSGAC    Homeland Security and Governmental Affairs Committee
   IRS   Internal Revenue Service
  JTTF   Joint Terrorism Task Force
  NASS   National Agricultural Statistics Service
 NJTTF   National Joint Terrorism Task Force
 NCFD    National Computer Forensic Division
  NFC    National Finance Center
 NRCS    Natural Resources Conservation Service
  OAC    Office of Adjudication and Compliance
 OCFO    Office of the Chief Financial Officer
 OCIO    Office of the Chief Information Officer
  OGC    Office of the General Counsel
  OIG    Office of Inspector General
  OMB    Office of Management and Budget
OOCIC    Ohio Organized Crime Investigations Commission
  PCIE   President’s Council on Integrity and Efficiency
   RBS   Rural Business-Cooperative Service
   RD    Rural Development
  RHS    Rural Housing Service
  RMA    Risk Management Agency
  RTB    Rural Telephone Bank
  RUS    Rural Utilities Service
 SWCD    Soil and Water Conservation District (Allen County, Indiana)
 USDA    U.S. Department of Agriculture




                              USDA OIG SEMIANNUAL REPORT TO CONGRESS FY 2008 1st Half   39
EXAMPLES OF PROGRAM IMPROVEMENT RECOMMENDATIONS MANAGEMENT AGREED TO DURING THIS REPORTING
PERIOD (143 TOTAL)


n	    OIG made 35 recommendations to improve FSIS’ management controls, data collection and analyses processes, and IT infrastructure.
      FSIS agreed with all of these recommendations and has already begun to take responsive action.

n	    APHIS generally agreed with our recommendations to enhance the controls over the importation of live animals and responded with
      plans or actions to strengthen or implement additional animal import controls.

n	    APHIS agreed to develop timeframes to implement its ePermits system for importation of animal products, incorporating the ability
      to identify permit applicants who require inspections and to track permit activity at the ports of entry.

n	    FS agreed to develop an overall plan to complete airworthiness assessments for its firefighting aircraft and to require States to assess the
      airworthiness of aircraft borrowed from FS and used on Federal fires.
n	    NASS has implemented changes in its internal controls to improve the data collection and review process for the Dairy Products Prices
      report.

n	    RUS agreed to develop a formal strategy to maximize the effectiveness of renewable energy projects, including the development of
      goals and performance measures as well as the use of grant and loan combinations to maximize available loan and grant funds.

n	    FSA agreed to ensure that the guidance for conducting improper payment reviews was revised to reflect the revision to the improper
      payment determination for Marketing Assistance Loans lien searches, and that controls are implemented to confirm that improper
      payment estimates are accurately based on the results of payment reviews.




MISSION OF OIG

OIG assists USDA by promoting effectiveness and integrity in the hundreds of programs of the Department. These programs
encompass a broad spectrum, involving such areas as consumer protection, nutrition, animal and plant health, agricultural production,
agricultural product inspection and marketing, rural development, research, conservation, and forestry. They affect our citizens, our
communities, and our economy.



OIG STRATEGIC GOALS

We have focused nearly all of our audit, inspection, and investigative direct resources on our four goals:


n	Strengthen USDA’s ability to implement safety and security measures to protect the public health as well as agricultural and
   Departmental resources.

n	    Reduce program vulnerabilities and strengthen program integrity in the delivery of benefits to program participants.

n	Support USDA in implementing its management improvement initiatives.

n	    Increase the efficiency and effectiveness with which USDA manages and exercises stewardship over natural resources.
                                                             To learn more about OIG, visit our Web site at
                                                                      www.usda.gov/oig/home.htm


                                                      How To Report Suspected Wrongdoing in USDA Programs

                                                                         Fraud, Waste and Abuse
                                                                     In Washington, DC 202.690.1622
                                                                         Outside DC 800.424.9121
                                                                      TDD (Call Collect) 202.690-1202

                                                                            Bribes or Gratuities
                                                                          202.720.7257 (24 hours)
                                                                          888.620.4185 (24 hours)

                                                                       OIG Hotline Through the Web:
                                                                       www.usda.gov/oig/hotline.htm




The U.S. Department of Agriculture (USDA) prohibits discrimination in all its programs and activities on the basis of race, color, national origin, age, disability, and
where applicable, sex, marital status, familial status, parental status, religion, sexual orientation, genetic information, political beliefs, reprisal, or because all or
part of an individual’s income is derived from any public assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at 202.720.2600 (voice
and TDD). To file a complaint of discrimination, write to USDA, Director, Office of Civil Rights, 1400 Independence Avenue, S.W., Washington, D.C. 20250–9410, or call
800.795.3272 (voice) or 202.720.6382 (TDD). USDA is an equal opportunity provider and employer.
